June 14, 2010



The following report describes an economic model that could provide significant support
for the Postal Service’s initiative to optimize its retail network. The model was developed
by a well-known economist who specializes in the placement of facilities to offer
universal access. The report discusses at some length the model, its considerable
strengths, and its limitations.

The model takes a powerful first look at the network, illuminating geographic areas
where the retail services provided by the Postal Service overwhelm the demand for
such services by the American public. The model is scalable from small regions to a
national profile, and decision makers are directed to areas that require optimization
efforts and those that appear to be optimized or even underserved.

The model also provides a top-down analytical tool for senior leadership. This
complements the bottom-up evaluative process already in place to create a
comprehensive planning process. The same analytical capability also allows
stakeholders and oversight authorities the ability to evaluate the decisions being made
about the retail network in a transparent environment. A modernization program using
the model could help align retail services to a changing society and provide
opportunities to improve access, service, and convenience. For example, a network of
fewer, larger facilities would make offering extended hours easier.

The principal limits of the model are the reliability of the data used and the lack of
comprehensive data, especially certain types of labor data, for individual retail units.
While Postal Service data becomes stronger and more useful, the model results
regarding the amount of labor spent on retail activities require validation at the local
area. Local knowledge is also needed to provide information about the unique
characteristics of the area and its retail facilities.

Secondly, many Post Offices, stations, and branches provide retail operations as well
as carrier operations. The front office, containing the lobby and retail windows, is
supported by the back office staff, who also support carrier operations. The division of
duties is not well chronicled at individual facilities, and the data deficiency provides
difficult challenges for the model. The model attempts to quantify operational duties
caused by front office activities, but until the facility-level data specifically separates out
those efforts, local analysis or cautious progress toward optimization efforts seems most
prudent. Many other retail facilities do not have carriers operating out of them. The data
there is obviously cleaner.
                                            2


In summary, the model serves as a powerful guide and first-level screening device,
directing planners to areas where retail capacity is misaligned with customer demand.
At a corporate level, the model suggests that the Postal Service optimization effort will
be substantial. The model directs planners to focus at a first look on the $5.5 billion
portion of the Postal Service’s annual retail investment where the Postal Service’s retail
capacity appears to exceed demand by the public. It can then guide planners through
the first stage of a more detailed examination and validation process. This study varies
from a normal audit report in that it provides an instrument to be used by planners,
rather than identifying a specific savings opportunity that should be achieved. The large
universe identified in the report serves more as a map for exploration than a cost
reduction target.




David C. Williams
Inspector General
 Analyzing the Postal Service’s Retail Network
   Using an Objective Modeling Approach




                              June 14, 2010




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-10-004
U.S. Postal Service Office of Inspector General                                                      June 14, 2010
Analyzing the Postal Service’s Retail Network                                                      RARC-WP-10-004



      Analyzing the Postal Service’s Retail Network Using an
                  Objective Modeling Approach


                                          Executive Summary

There is an emerging consensus in the postal community on the need to review the
U.S. Postal Service’s retail network. The recent Government Accountability Office
report, Congressional hearings, and the Postal Service’s 2020 plan all discuss
optimizing the Postal Service’s retail network as one possible strategy to reduce costs in
the face of declining revenues.1 The debate is shifting from whether the Postal Service
needs to adjust its network to how it should adjust the network. What is missing is a
thorough, transparent, and objective approach to guide the Postal Service’s efforts for
the next stage of optimization. A model is needed both to guide decision makers and
allow stakeholders to review the decision process.

The Postal Service’s current retail facility planning appears to be a “bottom-up” process,
based upon the district offices’ local management recommendations. By contrast, an
approach using economic modeling adds a “top-down” dimension to the planning
process, by offering consistent economic criteria for locating and sizing retail facilities.
The approaches complement each other. Economic modeling can inform the decisions
made by local planners, and local knowledge is critical to validating and implementing
the model results. An approach combining top-down economic modeling with adequate
bottom-up local review is well suited to support the consolidation of existing facilities
and any opening of new locations.

The U.S. Postal Service Office of Inspector General sponsored research by George
Washington University Professor of Economics Anthony Yezer to develop an economic
model that could inform the debate. Dr. Yezer is a nationally recognized expert in real
estate location and applied economic analysis. In this effort, he attempted to determine
what the Postal Service’s retail network would look like if it were to be optimized based
on research on optimal public facility location and the best practices used by private
industry. Dr. Yezer built an economic model to estimate the optimal number, size,
spacing, and staffing of Postal Service retail facilities within any specific area. The
model demonstrates how to locate and size facilities to maximize the benefit to the
public by matching the demand for retail services to the cost of providing them.

Modernizing the Postal Service’s retail network would not only save costs but is also
intended to increase revenue, improve service, and enhance the welfare of the
American public. By adopting a thorough, transparent, and objective approach to retail

1
 U.S. Government Accountability Office, Strategies and Options to Facilitate Progress toward Financial Viability,
Report No. GAO-10-455, April 12, 2010, http://www.gao.gov/new.items/d10455.pdf. pp. 33-5, and
U.S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future, March 2, 2010,
available at http://www.usps.com/strategicplanning/_pdf/ActionPlanfortheFuture_March2010.pdf, pp.8-9.


                                                          1
U.S. Postal Service Office of Inspector General                                  June 14, 2010
Analyzing the Postal Service’s Retail Network                                  RARC-WP-10-004


modernization, the Postal Service can respond to stakeholder concerns and optimize its
retail network. Modernization should not be thought of as solely a cost-saving response
to the Postal Service’s financial problems. Instead, it should be seen as a way to meet
demand more efficiently and equitably in a way that cuts costs, encourages constant
reevaluation and improvement, and aligns the Postal Service’s retail network to the way
people live now. It is also important to recognize that this modernization effort is not
starting from scratch but must instead retrofit a legacy network of retail facilities.

Our research effort produced the following key findings:

       Overall, based on the model’s results, the Postal Service’s network has too many
        retail facilities located too closely together and with too many retail windows.

       In large urban areas, where 13 percent of the facilities in this study are located,
        the size and spacing of retail units appear to be near optimal on average.
        However, the number of open windows and staffing may be too low in some
        areas to meet demand, perhaps resulting in lost revenue and lines that are too
        long.

       In smaller towns and rural areas, where 87 percent of the facilities used in this
        study are located, the model indicates the Postal Service has on average too
        many facilities spaced too closely together to match customer demand efficiently.
        The model also suggests these facilities may have too many windows and
        excess staffing beyond what is required to efficiently match demand.

       Evaluating the scope of the Postal Service’s retail effort is more complicated at
        the Postal Service than at other retailers, because many Postal Service retail
        facilities also contain delivery carriers. This frequently results in the commingling
        of labor activities in the back office. Many clerks engage in window activities and
        also support delivery efforts through various back office mail processing
        activities.

       The model directs planners to the $5.5 billion portion of the Postal Service’s
        annual retail investment where the Postal Service’s retail capacity appears to
        exceed demand by the public. While Dr. Yezer describes this estimate of the
        universe of possible financial benefits as a rough estimate complicated by
        limitations in the data, the potential savings from optimizing the network are
        surely large. Because the model is designed to be customized for local use,
        ultimately, the size of any cost savings must be determined by applying the
        model to individual localities after local decision makers verify the data.

       The Postal Service should improve its retail data and financial analysis at the
        local facility level. The Postal Service needs upgraded and improved data
        systems to fully support retail optimization and modernization efforts in an
        automated environment rather than a labor intensive process prone to subjective
        bias.




                                                  2
U.S. Postal Service Office of Inspector General                                June 14, 2010
Analyzing the Postal Service’s Retail Network                                RARC-WP-10-004


       It is possible to predict the retail revenue at an existing facility based on the
        demographic and business characteristics of the surrounding market area, the
        number of competitors in the area, and its distance from other Postal Service
        retail facilities.

       By comparing the predicted revenue at an existing facility to its actual revenue,
        the Postal Service can use the model as a tool to evaluate facility performance,
        highlight best practices, and determine whether retail units can be profit centers.

       The model can also be used to plan new facilities or the expansion of alternative
        access points such as contract postal units by allowing managers to input the
        expected growth in households and businesses in a given area and predict the
        resultant demand for Postal Service retail services.

       This research effort can inform the public policy debate on two key issues. It
        offers an objective, economic evaluation of what the Postal Service retail network
        would look like if it were to be optimized to meet customer demand. It also can be
        used to estimate the costs of inefficiency and inaction from maintaining the
        legacy network of retail facilities.




                                                  3
U.S. Postal Service Office of Inspector General                                                      June 14, 2010
Analyzing the Postal Service’s Retail Network                                                      RARC-WP-10-004




      Analyzing the Postal Service’s Retail Network Using an
                  Objective Modeling Approach


Overview
The Postal Service’s past attempts to adjust its network by closing retail facilities have
resulted in a long history of public debate and controversy. We believe the Postal
Service has the opportunity to modernize its retail network, not only to save costs, but
also to increase revenue and improve service. We also believe that by adopting a
thorough, transparent, and objective approach, the Postal Service would have the best
chance of optimizing its retail network and balancing stakeholder concerns.

To begin addressing these issues, the U.S. Postal Service Office of Inspector General
(OIG) contracted with Global Insight, Inc. and Dr. Anthony Yezer, Professor of
Economics at George Washington University. Dr. Yezer is a nationally recognized
expert on facility location and applied economics.2 We asked him to develop a
quantitative model designed to estimate the optimal number, size, spacing, and staffing
of Postal Service retail facilities based on the current academic research on public
facility location and the best practices of private industry. This research was limited to
separately considering the retail component of the Postal Service’s overall network and
assumes the Postal Service could flexibly operate and optimally manage its network.
The OIG also asked Dr. Yezer to attempt to estimate the financial impact of the
difference between the Postal Service’s current network and an optimized retail
network.

While quite complex in practice, the underlying concepts and methods that Dr. Yezer
uses are straightforward and accepted within the business, public, and academic
communities. Using a similar approach would provide the Postal Service with an
objective framework to explain to regulators, policy makers, and other stakeholders its
efforts to match the retail network to current needs.

Before describing the model, it is useful to discuss two factors that affect the application
of the model: (1) the Postal Service’s retail network is unique and (2) the Postal Service
is required to provide universal service.

The Postal Service’s Retail Network Is Unique

The U.S. Postal Service manages one of the largest retail networks in the country. Its
36,000 retail facilities provide unparalleled access and reach, but the locations of postal

2
 Dr. Yezer is an economist specializing in real estate, business location, and applied econometrics, authoring 41
professional journal articles and providing consulting services to a variety of private sector organizations.


                                                          4
U.S. Postal Service Office of Inspector General                                         June 14, 2010
Analyzing the Postal Service’s Retail Network                                         RARC-WP-10-004


retail facilities are largely based on historic needs and patterns. Moreover, the Postal
Service is a unique retailer and differs from standard private retailers in a number of
important ways.

First, Postal Service retail and delivery operations are frequently co-located. Retail units
often house carriers and Post Office Box service, and clerks often serve the needs of all
functions. Distribution and Window Clerks not only engage in non-revenue activities at
the window such as retrieving packages and held mail, but they also may work part of
the day in the back office supporting activities unrelated to retail transactions. For
example, clerks sort and distribute mail to carriers and distribute mail to Post Office
Boxes and Caller Service sacks. Second, while many retailers adjust their products and
prices based on their location, choosing products and setting prices based on what the
market will bear, the Postal Service offers uniform pricing for most of its products.3 The
price of a stamp is the same across the country. Finally, the Postal Service network is
part of the national and cultural infrastructure. In many places, it is the only outpost of
the federal government, and in some small towns, the post office serves as the anchor
of the community. All of these factors affect the task of optimizing the Postal Service’s
retail network.

Retail Optimization and Universal Service

If the Postal Service were to rebuild its retail network from scratch, focusing on today’s
customers’ needs, few observers would expect it to look as it currently does. But, what
processes are needed to develop a more efficient network for the 21st century?
Answering this question is difficult. It requires balancing public policy goals and
competing stakeholder interests while considering the financial implications of its
decisions. To be responsive, policymakers and decision makers must consider how to
effectively address service changes in local communities as well as review complex
postal policies and legal procedures regarding closing or moving postal facilities.
Constraints such as these have resulted in a legacy retail network that may not be
reflective of current needs. Our research suggests that rectifying this situation requires
an objective approach implemented equitably. It also suggests that the processes are
complex and that many challenges lie ahead.

One key question that must be addressed by stakeholders and policymakers is the
meaning of universal service. Historically, it has often been defined in terms of the
number of Postal Service retail facilities. However, the network has been unresponsive
to changes in society. For example, when both spouses in a family are in the workforce,
the importance of access before work, after work, at lunch, and on weekends might
need to be addressed. In fact, fewer larger facilities that are open longer hours could
actually provide better service based on today’s needs. For customers working during
normal business hours, a nearby postal retail unit that opens at 9:00 a.m. and closes at
5:00 p.m. may be far less convenient than a larger unit, slightly farther away, that stays
open into the evening or opens earlier in the morning. Such a unit could serve a larger
number of customers, making a broader range of services economically viable. These

3
    Pricing for Post Office Box service is an exception as it is based on location.


                                                              5
U.S. Postal Service Office of Inspector General                                 June 14, 2010
Analyzing the Postal Service’s Retail Network                                 RARC-WP-10-004


practices are common among today’s retailers who understand modern lifestyles,
consumer needs, and buying patterns. It is important to note that historical practice
involved opening at least one retail facility per ZIP code regardless of demand or
proximity to other units, but times have changed making this clearly inconsistent with
modern facility location practices.

On the whole, fewer, modern, appropriately-sized retail facilities could also make
extending operating hours more cost efficient. It is unreasonable to demand that a small
Post Office staffed by one employee stay open for extended hours. Longer hours allow
customers to access postal services more conveniently and should improve sales as
well as customer perceptions of the Postal Service. Moreover, larger facilities typically
cost less per square foot of space because of economies of size. Higher service levels
offered at fewer facilities could help the Postal Service keep prices low, reduce the time
customers wait in lines, meet competitive forces, and conserve financial as well as
physical resources. Of course, policymakers may decide that in some underserved
areas more retail units are needed than strict efficiency requires. In this case, the model
would allow policymakers to determine the cost of providing additional retail services.

Lastly, objective analytic techniques beyond the scope of this effort could allow the
estimation of retail demand for alternative sales channels such as grocery store outlets,
kiosks, and contract postal units (CPUs) — all of which can increase customer service
levels and perhaps network efficiency. Alternate access channels that could sensibly
stay open even later than consolidated Postal Service facilities and are located where
customers already go may provide an additional way to provide retail services and
address universal service obligations.

Like private sector retailers, the Postal Service must balance the revenue from retail
services against the cost of maintaining and staffing retail facilities. Knowing how facility
location influences the demand for retail services and how the demand for retail
services can be met most efficiently will allow the Postal Service to make these
trade-offs most effectively.

In sum, our research indicates that adopting objective retail performance measures
could significantly improve the financial performance of the Postal Service’s retail
operations and likely increase customer service while lowering the cost to provide it.


Modeling Approach
Dr. Yezer’s model and results are described in the following paper: The Postal Service
Retail Facility Location and Size Problem. In simple terms, Dr. Yezer’s model estimates
potential retail sales by geographic market area using business and demographic data,
and then calculates the amount of labor and facility space needed to respond to the
retail demand. The model has two parts.

The first part of the model estimates the amount of revenue a facility will generate
based on the size of its market area and local characteristics such as the number of



                                                  6
U.S. Postal Service Office of Inspector General                                                      June 14, 2010
Analyzing the Postal Service’s Retail Network                                                      RARC-WP-10-004


households, the number of employees working at businesses in the area, the amount of
nearby competition, and whether the retail unit is in a large urban area. A key insight
from location economics is that people will buy less the farther they must travel to a
retail location as the travel time adds to their purchase costs. All of these details can be
entered into the model’s demand equation to produce a revenue estimate. For example,
the model estimates an urban retail unit with a market area of 10 square miles, serving
10,000 households and businesses employing 1,000 workers, and having one
competitor nearby will generate $932,952 in annual revenue.

The second part of the model determines the cost of meeting the retail demand. The
important cost relationships are based around the number of windows:

        How many windows are needed to serve the revenue expected to be generated
         by a retail unit?

        How many employees are needed to staff those windows? What is the cost of
         this labor?

        How does the amount of facility space required vary depending on the number of
         windows? How much will this facility space cost in a particular area?

Once these relationships are estimated, the model predicts the labor and space costs
associated with a particular level of revenue. For example, the model estimates a retail
unit in a typical large urban area generating $1 million in revenue a year should need
2.5 windows, 3.7 employees, and around 4,115 square feet of retail space at an annual
combined cost of $308,184.4 Of course, this cost estimate would vary depending on the
cost of renting space in a particular city, so the model should always be calibrated to the
local area under consideration. The model estimates can be used to check whether
current facilities have the optimal staffing and floor space. By joining the revenue and
cost parts of the model together, the model may be solved to determine how far apart to
place retail facilities to produce the most net revenue (revenue minus cost) and the
greatest benefit to consumers for any selected market area. The model solution also
determines the optimal number of retail employees, number of windows, and square
footage.


Model Results
Dr. Yezer applies the model to five broad segments of the country including the United
States as a whole. He breaks the country into large urban areas and non-urban areas
and also highlights two extreme but important subsets of the country: high-density
downtown areas and very low-density rural areas.5 Table 1 shows his results. For each
area, the number of employees working at area businesses per square mile, number of
households per square mile, current average distance between locations, optimal

4
 Co-located delivery operations are not considered in the model.
5
 Urban areas include large cities and their suburbs. Non-urban areas include areas outside of large cities such as
smaller cities, towns, and rural areas. Together urban and non-urban areas cover the continental United States.


                                                          7
U.S. Postal Service Office of Inspector General                                             June 14, 2010
Analyzing the Postal Service’s Retail Network                                             RARC-WP-10-004


distance between locations, optimal number of windows, optimal facility size, and
optimal net revenue per square mile are shown. The first row shows the U.S. average,
and the other rows are arranged by employment and household density.

                                Table 1: Model Results by Type of Area

                  Employees                        Current      Optimal              Optimal
                    at Area                        Average      Average    Optimal    Facility   Avg. Net
                  Businesses     Households        Distance    Distance    Number      Size      Revenue
                  per Square     per Square        Between     Between        of     (Interior    per Sq.
Type of Area         Mile*          Mile*         Locations*   Locations   Windows   Sq. Feet)     Mile

U.S. Average           20            350           9 miles     11 miles      4.0      6,276      $3,788

High-Density,        2,000          6,900          2 miles     2 miles       3.0      4,844      $77,366
Downtown

Large Urban           355           2,259          4 miles     4 miles       4.2      6,568      $29,801

Non-Urban              26            130           9 miles     12 miles      5.4      8,146      $4,589

Very Low-              1             11           12 miles     16 miles      0.6      1,095       $128
Density, Rural

* In addition to employment, the number of households, and the size of the facility’s service or market
  area, other factors are used to estimate demand in the model. They include measures of competition,
  median household income, and whether an area is urban.


       U.S. Average — Dr. Yezer calculated the U.S. average for illustrative purposes.
        Comparing the U.S. average results to the large urban and non-urban results
        shows the challenges of aggregating results. The optimal distance between
        facilities, 11 miles, is similar to the non-urban results, but the optimal number of
        windows, four, is closer to the large urban results. Thus, the optimal retail unit
        predicted for the U.S. average would not serve either one well. This also
        demonstrates the need for modeling efforts at local levels to obtain more
        valuable results.

       High-Density Downtown Areas — The study used 271 facilities for the analysis of
        high-density downtown areas. The model suggests that the size and spacing of
        retail units in this category is near optimal on average or that perhaps slight
        increases in service might need to be provided to meet demand. Lack of service
        could be resulting in lost revenue and wait times that are too long in some
        locations.

       Large Urban Areas — A total of 3,423 facilities were used for the analysis of
        large urban areas. While the average spacing of Postal Service retail units in this
        category is consistent with the optimal, the number of open windows and workers
        may be too low here to optimally serve the demand, and this may be resulting in
        overly long retail lines in some areas. The removal of simple vending machines



                                                       8
U.S. Postal Service Office of Inspector General                                                       June 14, 2010
Analyzing the Postal Service’s Retail Network                                                       RARC-WP-10-004


         may be increasing wait times and decreasing window sales efficiency.6 Increased
         staffing and alternative access might need to be considered. It is important to
         note, however, that this analysis is based on the average, and actual distribution
         in a given city may be very different.

        Non-Urban Areas — There were 22,811 facilities used in the analysis of non-
         urban areas. Moving from an average distance of approximately 9 miles to
         12 miles increases the area served by each postal facility to be nearly twice as
         large. The model results also suggest too many windows and too many
         employees per facility, on average, to efficiently match demand.

        Very Low-Density Rural Areas —13,616 facilities were used to analyze very low-
         density rural areas. The average actual distance between facilities is well below
         the optimal. The results also show the optimal facility for these areas would have
         only 0.6 windows. Moving to the optimal distance between facilities would help,
         but individual units with one window would still be likely to lose money on
         average.

Insights

We gained several insights from the model and our related research into this topic:

        Nationally, from the sole perspective of economic efficiency, the model suggests
         that the Postal Service has too many retail units located too closely together. In
         an optimal network, designed to meet demand on a cost-effective basis, there
         would be fewer retail units, but many of those remaining would offer more
         accessible hours and more services. There may, however, be areas of the
         country where adding facilities would be beneficial.

        The model suggests that large numbers of retail units have excess windows and
         staff. However, there are exceptions. Retail units in large urban retail areas may
         actually have too few windows and staff. As a result the Postal Service may not
         be able to provide the best service or capture all of the demand for retail
         services.

        According to the model, there may be more savings from optimizing the labor
         force than from the closing of small facilities.

        In very low-density rural areas, it may not be possible to find any distribution of
         facilities that generates positive net revenue (revenue minus cost). In these
         cases, the Postal Service may want to consider CPUs and other low-cost
         methods of providing service to avoid having Post Offices that lose money or are
         so thinly staffed that they cannot provide reasonable access.

6
  Anecdotal evidence suggests that the removal of simple vending machines may have increased small revenue
transactions at retail windows, reducing their efficiency. While Automated Postal Centers (APCs) are available in
some locations, they require credit cards. To be efficient, highly trained window clerks should be primarily focused on
more complex transactions.


                                                           9
U.S. Postal Service Office of Inspector General                                   June 14, 2010
Analyzing the Postal Service’s Retail Network                                   RARC-WP-10-004


       Because of the difficulties in addressing demand during peak hours, a significant
        expansion of labor flexibility such as using part-time employees and allowing
        employees to cross crafts by working on tasks primarily assigned to positions in
        other unions might need to be explored.

       Demographic differences between customers at different Postal Service facilities
        need to be explored and understood before proceeding with significant changes.
        While some retail units sell much Express and Priority Mail, some sell mostly
        small dollar value money orders and single stamps.

       The Postal Service should re-examine its unique, historical model of co-locating
        its retail units with its delivery operations. Private package delivery firms such as
        UPS use a very different model. They have many retail facilities where people
        live and work but have a few large, centralized delivery operations where land is
        cheap and access to highways is easy. At the very least, the Postal Service
        needs to recognize it operates with its current, unique shared model and produce
        data that sensibly separates facility space and labor usage for the two disparate
        activities at each individual unit.

       The mystery shopper data the Postal Service collects on customer wait time in
        line could be an extraordinarily valuable piece of information in attempting to
        optimize the retail network to meet demand. Unfortunately, the mystery shopper
        data available to us did not include the time of day and could not, therefore, be
        linked to sales revenue measures. Providing the time of day with this data would
        supply an important source of information as the Postal Service moves forward in
        trying to optimize its retail network.

Additional Uses of the Model

In addition to determining the optimal size, spacing, and staffing of the Postal Service’s
retail network, there are other uses of the model:

     The model can be used to estimate expected revenue of any existing retail unit
        based on its size and the business and demographic characteristics of its market
        area such as population, income, employment, and competitors. This can be
        compared to actual revenue to help evaluate performance and benchmark
        successes across the country.

     The model can be used to plan new facilities by allowing managers to input the
        expected growth in households and businesses and predict the likely demand for
        Postal Service retail services. By estimating costs, the model can also help guide
        where new demand might be better addressed by alternative access models
        such as CPUs or other options.

     While the model does not address the universal service requirement directly, it
        can be used to roughly estimate its cost. For example, it is possible to estimate
        the loss experienced by the Postal Service if it is required to locate retail units in


                                                  10
U.S. Postal Service Office of Inspector General                                   June 14, 2010
Analyzing the Postal Service’s Retail Network                                   RARC-WP-10-004


        low demand areas even if these facilities were optimally sized and spaced. The
        model can also estimate the loss in net revenue of having facilities incorrectly
        spaced in a given area.

Estimated Financial Impacts from the Model

Developing a national estimate of the financial impact of optimizing the Postal Service’s
retail network is inherently difficult but nonetheless useful to provide an order of
magnitude of the large cost of inefficiency in the existing network and implicitly estimate
the cost of failing to optimize.

The model directs planners to the $5.5 billion portion of the Postal Service’s annual
retail investment where the Postal Service’s retail capacity appears to exceed demand
by the public. Dr. Yezer notes that this is a rough estimate as he was constrained by
limited data in producing his model and made certain necessary assumptions. First, due
to limitations in the data, the model treats employees who spent at least 10 hours in a
week logged into a window terminal as dedicated retail workers. In reality, we know
qualitatively that some such clerks have shared duties unrelated to retail transactions,
but we do not have quantitative data readily available to do the separation properly for
each retail unit. Second, because of the lack of data for retail facilities not on the POS
(Point of Sale) system, Dr. Yezer applied results from the facilities that do have POS
units, which are typically larger facilities, to those that do not, which are typically smaller
facilities. This could influence results. Third, this estimate is based on the averages for
urban and non-urban regions within the United States, but there is a significant amount
of variation within these large regions. A precise estimate of the cost savings can only
be reached by analyzing much smaller areas individually, preferably after the data has
been validated by local decision makers.

Dr. Yezer’s estimate does provide, however, a reasonable order of magnitude for the
potential improvement in net revenue from optimizing the Postal Service’s retail
network. To fully realize and continue potential savings, decision makers should
envision a continuing, multiyear effort requiring many adjustments and improvements to
meet shifting demographic and buying patterns.


Application of the Model
The current model is not an operational blueprint. Customization is necessary to
implement it in any particular location, and any implementation program requires actions
outside the scope of the model. The model assumes the Postal Service has the
flexibility to reassign labor and relocate facilities easily. It does not take into account
constraints resulting from existing lease commitments, the costs of moving or
renovating facilities, or other transition costs. Addressing community and stakeholder
concerns generated by a modernization program is also, obviously, a key issue.

An implementation program should experiment with pilot locations, explore options, and
then learn from the results produced. Those who use the model should have a mindset


                                                  11
U.S. Postal Service Office of Inspector General                                  June 14, 2010
Analyzing the Postal Service’s Retail Network                                  RARC-WP-10-004


of continuous improvement, so that the feedback from the implementation process is
used to enhance the model. Because the Postal Service is restructuring an existing
network rather than entering a new area, an incremental and experimental approach is
important.

Applying the model operationally involves several considerations:

       One or two pilot locations the size of a county or small postal district should be
        selected to demonstrate the application of the model. Locations that are
        representative of many other locations would be preferable for the pilot. The
        planners would also want to choose a place where making network changes is
        easier — for example, a location having many facility leases that will expire in the
        next few years.

       All of the data used in the model for the pilot locations should be verified by local
        retail experts who can make sure that any special circumstances are known. In
        addition, the model allows for a dialogue between national planners and local
        offices to conform it to local and regional differences.

       After the model is applied to a pilot location, an operational plan should be
        developed to respond to the results. Precise matching to model results is not
        required; making improvements and moving closer to the optimum is the key.
        The operational plan should take into account staffing changes, the effect on
        carrier operations, any need to change leasing arrangements or sell property,
        and other operational concerns.

       Early implementation could focus on areas where there is gross misalignment
        between supply and demand. As experience and better data lead to
        improvements in the model, the planners could continue in areas where the
        imbalance is more marginal.


Conclusion
Based on Dr. Yezer’s analysis, the Postal Service has a mismatch between the
provision of retail services and customer needs. Some areas have too many facilities,
staffed with too many clerks and sales windows. Retail facilities in other areas may not
be able to meet demand, so that the Postal Service provides inadequate service and
does not realize all of the potential revenue available.

The Postal Service could improve its net revenue by continuing to review and optimize
its retail network. Moreover, by adopting an objective approach, the Postal Service
could begin to restructure its retail network in a way similar to the best public facilities
location practices and the best practices of private retailers. When combined with local
expertise, the Postal Service could become more efficient and at the same time actually
increase service to its customers. In some high-growth areas, expanded facilities or




                                                  12
U.S. Postal Service Office of Inspector General                                June 14, 2010
Analyzing the Postal Service’s Retail Network                                RARC-WP-10-004


alternative services might be needed to match new demand. In many other places,
however, facilities might need to be closed, moved, or consolidated into larger offices.

Efficiency should not be the only consideration when evaluating the closure or
consolidation of retail facilities. While the model gives direction on how the Postal
Service’s retail network can be optimized to address revenue, cost, and service
concerns, it does not directly address what is reasonable access. When using
Dr. Yezer’s model or any similar objective, economic criteria, the Postal Service and
policymakers should evaluate the universal service obligation and ensure that
economically depressed communities are treated appropriately. While a private
business may sensibly choose not to locate in areas where income is low or the
population is sparse, the Postal Service has a responsibility to provide service within a
reasonable distance of where Americans live regardless of their economic
circumstances. One option beyond the scope of this model is for the Postal Service to
find additional services to sustain low-revenue retail units needed for universal service.
By turning them from cost centers into profit centers, the Postal Service can only
strengthen universal service and its retail network.

For the retail network as a whole, the OIG encourages the Postal Service to move
forward with the goal of establishing a retail network optimization program that better
matches customer demand. The results embodied in our research seem an effective
beginning to lowering costs, increasing revenues, and improving service. For these
efforts, the OIG urges the Postal Service to improve its retail financial data and analysis
capabilities at the local facility level. We recognize that the Postal Service faces many
constraints and that implementation of these practices will be difficult and time
consuming. However, modernizing the retail network is long overdue and the costs of
inaction are high. The time to start a proactive effort is now, and our research suggests
good ways to start. Adopting objective measures and a consistent approach, shared
widely among stakeholders, should put the Postal Service on the best possible pathway
towards success.




                                                  13
U.S. Postal Service Office of Inspector General                       June 14, 2010
Analyzing the Postal Service’s Retail Network                       RARC-WP-10-004


                                       Acknowledgements

Mohammad Adra, Charles Crum, Kirk Kaneer, and Renee Sheehy contributed to this
white paper.




                                                  14
   The Postal Service Retail Facility Location
               and Size Problem


                                 Anthony M. Yezer*


                                    June 14, 2010




                                   Prepared for:
                                U.S. Postal Service
                          Office of the Inspector General


                 Under USPS Contract No. 6HQ0IG-09-B-0024
                          With IHS Global Insight

* Professor of Economics, The George Washington University. James Gillula, Adam
Lundberg and Keith Boom of IHS Global Insight had a significant role in the conduct of
this research and the completion of this report. The efforts of USPS OIG staff, including
Kirk Kaneer, Renee Sheehy, and Charles Crum were essential to both data assembly and
understanding USPS operating procedures.
                                                         Contents


1.    Introduction .................................................................................................................1 

2.    General Statement of the Problem and its Solution ....................................................5 
      Components of a model determining demand for and cost of retail operations .........6 
      Bringing components together and solving the model for optimal size of
      facilities .......................................................................................................................7 
      Relation between the optimum in the model and current USPS operations ...............9 

3.    Specific Statement of the Problem and Solution ......................................................12 
      Determinants of revenue per square mile of market area .........................................12 
      Relation between revenue and retail input needs ......................................................13 
      Relation between windows and labor requirements .................................................14 
      Relation between windows and postal store space needs .........................................15 
      Relation between postal store size and cost ..............................................................16 
      Solving the model .....................................................................................................16 

4.    Estimation of the Parameters Needed to Solve the Model .......................................17 
      Data sources and characteristics ...............................................................................17 
      Specification and estimation of the USPS postal store revenue equation ................18 
      Issues in model calibration due to nonlinear relation between radius and area ........20 
      Specification and calibration of the USPS revenue per window equation ...............21 
      Specification and calibration of the USPS labor per window equation ....................22 
      Specification and calibration of interior space per window......................................23 
      Specification and calibration of cost per square foot ................................................23 

5.    Demonstrating Characteristics of the Fitted Model ..................................................24 
      Economics of postal store location in large urban areas versus rest of the U.S. ......24 
      Solving the model for the average location in the U.S. ............................................31 
      Solving the model for high density urban areas and low density rural areas ...........33 

6.    Applying the Model to a Market Area: the Case of Buffalo.....................................37 
      Discussion of the innermost circle: Buffalo, 0 to 7 miles from City Center ...........38 
      Discussion of the middle annulus: Buffalo, 7 to 20 miles from City Center ...........40 
      Discussion of the outer annulus: 20+ miles outside central Buffalo .......................42 
      Lessons from application of the analysis to the Buffalo-Niagara Falls MSA ..........44 

7.    Summary and Conclusions Regarding the Recommended Size and Location
      of USPS Retail Facilities ..........................................................................................45 
      Summary of the research effort.................................................................................45 
      Conclusions and recommendations...........................................................................47 

Appendix on USPS Data System Constraints....................................................................49 




                                                                  i
    The Postal Service Retail Facility Location and Size Problem


                                        1.        Introduction
        The U.S. Postal Service has a continuing interest in providing service facilities
that meet the demands of its retail customers. It has engaged in innovative strategies to
bring expanded retail services to areas where demand is growing rapidly. The Postal
Accountability and Enhancement Act has prompted increased scrutiny of costs and
benefits of existing facilities and expansion plans.

        Recently the Government Accountability Office raised a number of questions
regarding both the current spatial distribution of facilities and the databases used in
planning and maintaining those facilities.1 While the report provided no economic
analysis of benefits and costs of facilities, it noted a substantial variation in the numbers
of facilities in counties that appeared otherwise similar in size and population. The
conclusion was that areas with large numbers of facilities were “over-served” and that the
Postal Service needed to develop processes to reduce the number of facilities in such
areas. The report further concluded that current USPS databases, particularly the
Facilities Data Base, were inadequate to support the task of managing facilities.

         The goal of this study is to build and demonstrate the application of a model for
determining the size and spacing of retail facilities based on the existing academic
literature on facility location and consistent with best practices used by industry. The
academic approach to public facility location has been applied to and is used by a number
of local public services including fire stations, police stations, ambulance location, public
schools, emergency medical care, etc. Like the USPS, these activities all have a universal
service requirement. Because this model is being applied to USPS operations, the goal of
the model is to suggest design parameters for size, spacing, and clerical employment that
are consistent with maximizing consumer welfare. Once such a model is built and
operational, the actual number of facilities in an area can be compared to the welfare-
maximizing number estimated by the model in order to determine which areas need more
or fewer facilities. At the same time that the model solution provides the optimal spacing
of facilities, it also gives information on other aspects of “right sizing” including
requirements for numbers of windows, registers, interior space, and workers.2 Finally, it
provides estimates of revenue that should be expected for each facility that can be useful
in monitoring performance.


1
  U.S. G.A.O., “U.S. Postal Service Facilities: Improvements in Data Would Strengthen Maintenance and
Alignment of Access to Retail Services,” (GAO-08-41), December, 2007.
2
  In the fall of 2008, a previous iteration of this report, “The Postal Service Retail Facility Location and
Size Problem,” demonstrated the feasibility of the current modeling effort. In that report, the modeling
effort concentrated only on space cost as a criterion for facility spacing. This report adds the other major
element of retail cost, clerical labor, to the computation of an optimal network.



                                                      1
         One major contribution of this report is the estimation of a spatial revenue
function for USPS retail services. This is an equation that relates the characteristics of a
particular area, in this case the amount of employment, number and income of
households, and presence of competitors, to the market area served by a particular postal
store. It appears that this is the first time such a model has been estimated for the USPS.
The spatial revenue function can predict the revenue of a particular facility given
knowledge of the population, employment, and competition in an area. The model is
constructed based on measures of household characteristics, employment by industry and
competitors that are readily available. Given that the model can predict the relation
between the size and location of retail facilities and revenue, it can be used in a planning
mode to predict the change in total revenue from a given area when the size and spacing
of postal facilities is changed. In the literature on facility location, the spatial revenue
function is the key to producing a model of the optimal size, spacing, and location of
facilities.

         The report considers both facility space and labor cost required to produce postal
services. As with revenue estimates, facility space cost estimates are based on 2008 data.
The model requires estimation of the relation among facility size, labor use, and revenue
generation. Many issues are involved in going from actual USPS data on labor used in
each postal store to statements about the efficient use of labor in facilities of different
sizes that are necessary if a model of optimal facility size and location is to be
formulated. Fortunately, there is data on number of employees, number of active
windows, and revenue by facility to estimate the relation among facility size, labor effort,
and revenue generated for facilities that appear to be operating at a high level of capacity
utilization. Some improvements in USPS data systems are needed to remove any
ambiguity or lack of precision in the relations developed here.

        This report combines the spatial revenue function with the facility and labor cost
functions to take very detailed look at the question of whether the nation's network of
post offices is spatially aligned to meet the needs of consumers and businesses for postal
services. It reports the results of an economic analysis of the relationship between the
number and size of facilities in a given market area and the costs and benefits generated
by those facilities. The analysis is based on a model, which generates estimates of the
optimal number of facilities in an area that can be compared to the actual number.
Optimal is determined by a welfare-maximizing calculation of the surplus of benefits
over costs generated as the number of facilities is changed. This model is based on the
current academic literature on the facility location problem and is related to standard
practice for store location decision-making in the private sector.

        While the methods used in solving the public facility size problem here are very
different from the approach taken in the GAO report, the conclusion that, in some areas,
the USPS operates with too many retail facilities spaced too closely together appears to
hold. In other areas, the USPS may have too few facilities. Furthermore, the model
produces a computation of the welfare loss associated with the current configuration of
Postal Service retail facilities compared to an optimal configuration, and the difference in
welfare is very substantial.



                                             2
         In addition to the statements about inefficiency in the GAO report, it is possible to
use data from the Window Operations Survey (WOS) to document and quantify some
sources of technical inefficiency in retail operations. The WOS data for FY 2008 show
15,043 postal stores with reliable observations. Approximately 250 observations were
dropped due to obvious measurement error problems. Total WOS revenue at these
facilities was $12.6 billion, which was approximately 94% of all retail revenue.3 The
average revenue at the 15,043 WOS facilities was $839,418.

        The WOS data system contains a data item recording actual terminal staffing
hours for all the front office terminals in which there was a least 1 transaction meeting
WOS criteria. Hours of staffing on back office terminals are also shown if there were at
least 4 passport transactions or one mailing with cash tender in the last 90 days. For the
FY2008 period under study, the 15,043 postal stores had an average of 4,330 terminal
hours per facility, or 65,139,190 hours total. Assuming 2,000 hours of terminal time per
employee year, this implies 32,570 full time employee equivalents were needed to staff
these terminals during their actual hours of use.

        The WOS system records transactions by type and the USPS has adopted a
system of “earned hours use time factors” that can be used to calculate a time for each
transaction including some soft time and open and close. One approach to estimating x-
inefficiency is to compare actual hours with earned hours and treat all, or some portion,
of the difference as a measure of inefficiency in time spent in terminal operation. For
example, if the standard for technical efficiency is based on earned hours, then all actual
hours in excess of earned hours reflect x-inefficiency. Adopting this standard, there are
13,414 facilities with some excess of hours over earned hours with the average facility
having a ratio of earned to actual hours of 0.67, of the 58,189,932 hours at these facilities
fully one third reflect x-inefficiency and the annual cost of this x-inefficient terminal time
is $768,110,000. Alternatively one could adopt a lower standard that technical efficiency
only requires that earned hours equal 90% of actual hours. Using this standard, x-
inefficiency is found at only 12,347 facilities and its annual cost falls to $604,750,000.
Further relaxing the efficiency criterion to 80% of actual hours reduces the facilities with
any measure of inefficiency to 10,239 and the annual cost to $404,240,000. In any case,
applying the USPS standard for earned hours to the 15,043 facilities which have reliable
data produces rather substantial estimates for the annual amount of x-inefficiency that is
apparent even from the data on actual terminal operating time compared to tasks
performed. These, of course, are labor costs only and do not include facility size
considerations. Also they do not consider the productivity of these workers during the
time when they are not at their terminals. At facilities where the marginal product of
additional terminal time is very low or zero, it is likely that the marginal product of these
workers when their terminals are off is also close to zero. The alternative is that
management is misallocating too much labor time to staffing terminals while other
productive tasks remain undone.



3
 Total retail revenue was estimated as the sum across the 30,922 facilities that had revenue greater than or
equal to $1,000 in 2008.


                                                     3
        The previous analysis only considered the 15,043 facilities that account for 93%
of revenue. According to the USPS data systems there were 30,922 facilities with walk
in revenue greater than $1000 per year. What is happening at the other 15,879 facilities?
Detailed data on labor, terminals, terminal times, etc are not available. However, the
revenue data indicates that 12,557 of these facilities have total annual revenue under
$90,000 and indeed the mean revenue is $41,259 for these facilities. The $90,000 annual
revenue mark is meaningful for allocative efficiency in that it reflects a standard likely
necessary to generate revenue that is greater than operating cost even if all revenue is
recognized as return to retail services.

        This discussion of WOS data is not formally a part of the public facility location
modeling process undertaken here. However, it together with the GAO study paints a
picture of some likely outcomes that should be expected from a properly constructed
economic model of the welfare gains from moving to an optimal configuration of facility
sizes and locations. Clearly the current system has substantial x-inefficiency.
Examination of the 15,043 high-revenue facilities for which WOS data on earned versus
actual terminal staffing hours are available indicates x-inefficiency in labor allocated to
terminal operating hours that ranges from $404 to $768 million per year without
consideration of x-inefficiency at the 15,879 very low revenue facilities. The point is
that, even without detailed economic analysis and planning, the expectation should be
that the modeling process will show significantly larger gains from achieving technical
and allocative efficiency than these already substantial estimates obtained without
significant effort. Of course, the major gain from the economic modeling effort is that it
will provide a specific guide to the facility planning and staffing process that can move
the USPS toward a welfare-maximizing system of postal stores.

         This report begins with a general statement of the location problem facing the
USPS that is formulated in a fashion consistent with the literature on facility location.
Then the model is adapted to the specific circumstances facing the USPS, including the
policy of charging equal prices at all locations and the need to serve the entire market
area. This model is solved to produce a mathematical statement of the determinants of
welfare-maximizing facility location, which naturally depends specifically on the demand
and cost parameters facing the USPS. The next section takes USPS data and estimates
these crucial demand and cost parameters. This produces an operational version of the
model that is capable of estimating the relation between facility location decisions
(choices of the size or spacing of facilities) and revenues and costs. The model can then
be solved for a variety of choices of spacing, and the welfare-maximizing spacing can be
determined. The results provide an understanding of the facility location problem facing
the USPS. In some cases there is substantial difference between the number and size of
facilities that currently exist and the choices that would maximize welfare. In some
cases, the number and spacing of facilities may be reasonable but the size is non-optimal.
In others the size may be appropriate but the spacing incorrect. Finally, it is possible for
both size and spacing to deviate from the welfare-maximizing combination. Indeed, the
model is able to compute the difference in estimated welfare between that computed for
current location choices and the welfare-maximizing location choices.




                                             4
        The model is welfare-maximizing subject to the constraint that local service must
be provided everywhere. When mail processing costs, including sorting, transportation,
and delivery, are deducted from revenue, it is possible that the welfare-maximizing net
revenue is negative. In such areas, the model is suggesting that a welfare-maximum
would involve providing no retail stores. To the extent that this is not an option, the
model can be used to compute the loss suffered by the USPS in providing services to
these areas.

         In addition to estimating the optimal configuration of facilities, the model
provides a number of other useful outputs. It predicts revenue and cost for specific
facilities and provides a basis for judging differences in performance of operations
between actual and predicted. In the case of postal store planning, the model can provide
an estimate of future revenue so that an appropriate size can be selected. Finally, the
model predicts the conditions under which a “traditional” postal store does not provide
the optimal service option. Under conditions of low demand density, the model shows
that it is optimal to provide postal retail services in an alternative environment, i.e. a
Contract Postal Unit (CPU). While the model was not calibrated based on detailed
information on cost and revenue performance of actual CPUs, to the extent that they
function as fractional postal stores, the market identifies conditions under which they
provide economically efficient delivery of postal services.

         In this study, the baseline model has been estimated and solved for some general
prototype cases. Application of the model to a specific location, the Buffalo-Niagara
MSA, is also illustrated. In the final analysis, incorporation of this type of model in a
facility planning and management process should involve consultation with those
involved so that the model outputs can contribute to the decisions being made. The final
choice of location and size of facilities should include a significant measure of local
knowledge, and judgment is required to supplement the guidelines coming from any
location model.


            2.       General Statement of the Problem and its Solution
        The USPS provides retail services at postal stores.4 Prices are essentially spatially
invariant with the exception of P.O. Box rental fees where there is some adjustment for
differences in real estate pricing that will be ignored in the analysis conducted in this
report. Given that price is fixed, demand is determined by the cost of access to these
postal stores, the presence of competitors and population and employment in the area.
There are labor and facility costs associated with meeting this demand. In this study,
both facility and labor costs are considered. Because rent increases with store size at a
decreasing rate and revenue increases at an increasing rate with size, there are economies
of scale at the individual facility level in providing postal services.
Thus, the economic problem arises because decreasing the market radius of stores
increases demand for services but raises the cost per unit of service as rent per square foot

4
 The terms 'postal store' and facility designate a Facilities Database observation and the 10 digit finance
numbers which are attributable to that observation, including CPU and APC revenue.


                                                      5
rises and revenue per square foot falls. It is infeasible to provide a postal store for every
user, but production in a very small number of large stores is equally unattractive because
most demand would be choked off by the lack of convenient access.

Components of a model determining demand for and cost of retail operations

       This is a special version of the facility location problem that has been studied in
the academic literature. The nature of the problem may be understood by setting up a
simple mathematical model. Given that price is fixed, it is possible to write total revenue
per square mile, R, in the following form:

                                     ,                                                               (1)

where R = revenue per square mile, P is the fixed price per unit service, Q is the quantity
of services provided, D is the density of postal customers (households and firms) per
square mile, r is the market radius of the store (half the distance between postal stores),
and the function f(D, r) is an empirical relation to be determined using USPS data on
revenue and market characteristics. It is anticipated that fD > 0 because greater density of
customers yields greater demand density and that fr < 0 because a longer market radius
makes access to the store more expensive.

       Retail postal services at a store are produced through “windows,” W, and there is
a fundamental production relation between windows and revenue that is given by:5

                                                                                                     (2)

In this case, g(R) is a function to be determined empirically using USPS data on revenue
and windows of facilities serving different market areas. There should be a capacity
constraint on the ability to deliver retail services and generate revenue from a given
number of windows, and it is anticipated that gR > 0. The fact that (2) is measured per
unit area does not alter the fact that windows per unit area rises with revenue per unit
area.

       There is a relation between the number of windows in a postal store and the
required labor, L, that is given by:

                                                                              (3)
 
Windows generate staffing requirements and, based on USPS data, there is a clear
relation between the number of windows operating and the number of USPS personnel in
the facility so that hW > 0. Once again the fact that the analysis is conducted in terms of
labor and windows per unit market area has no effect on the sign of the relation between
the two variables. Employees who staff windows have other duties. Some of these are


5
 For facilities that are connected to the POS system, a window is a register that is generating significant
amounts of revenue. This will be discussed in some detail below.


                                                      6
directly related to revenue generation, handling incoming mail. Others may involve
sorting mail for delivery. These issues will be discussed later in this report.
                  
        Similarly, there is a relation between interior space per square mile of market
area, S, at a store and the number of windows given by: 
                  
                                                                              (4)

Where: i(W) is a function to be determined empirically using USPS data and design
criteria. But it is clear that iW > 0 because more space is required to accommodate the
additional windows.

        Translating clerical labor and facility space into USPS costs is fairly
straightforward. Labor cost per square mile, CL, is the product of the number of workers
per square mile and the earnings per worker, E, or CL = EL. The cost of space to serve
demand generated by each square mile of market area will depend on space per square
mile and on the size of the market area, i.e. on r,
                     
                              ,                                                          (5)

where: CS is the cost per square mile of market area, and j(S, r) is a facility rent equation
that gives the relation between the space per square mile of market and the facility rent
per square mile. Estimates of the rent function have already been made in connection
with P.O. Box fee setting and, of course, are generally available in the literature for office
space. These indicate that jS > 0, jSS < 0, and jr < 0 because additional space costs more
but larger facilities that serve a larger market radius cost less per square foot.

Bringing components together and solving the model for optimal size of facilities

         Solving a model of the optimal spacing between facilities is straightforward once
a criterion for judging optimal facility provision is selected.6 One standard choice is
maximization of the surplus of revenue over cost. Note that this is NOT a monopoly
solution because price is fixed and the USPS is a non-profit producer. Instead this
corresponds to a welfare criterion for consumers who ultimately must pay a higher price
for the cost of additional facilities.7 There is one special consideration in this problem
because the USPS is producing more than retail services. The revenue collected implies
that the USPS will incur costs of mail handling, processing, transportation, and delivery,
hereafter referred to as “mailing cost.” These operations impose costs on the USPS that
are a substantial fraction of total revenue. Accordingly, mailing costs should be deducted

6
  For an excellent discussion of the literature on location theory see Martin Beckmann & J-F Thisse,
Location Theory, Chapter 2, in the Handbook of Regional and Urban Economics, Edited by Edwin Mills
and Peter Nijkamp, or Martin J. Beckmann, Lectures on Location Theory, Springer 1999.
7
  For a specific discussion of the public facility location problem in continuous space see: M-H Ye and A.
Yezer, "Location and Spatial Pricing For Public Facilities", Journal of Regional Science, (May 1992), and
M-H Ye and A. Yezer, "Local Government and Supervised Spatial Multiplant Monopoly," Southern
Economic Journal, (April 1993).



                                                     7
from revenue collected as part of the net revenue maximization problem. Based on
recent annual reports, over 75% of USPS operating cost is associated with the costs of
handling, processing, transporting and delivering mail. It is not at all clear that this
average cost figure should be deducted from revenue for purposes of the analysis
conducted here, particularly given that marginal cost is likely well below average cost.
This report will take no firm position on the fraction of revenue that should be attributed
to retail activity because these issues were well outside the purview of the research.8
Instead, a fraction, 0 < (1 – ψ) < 1 of revenue will be attributed to covering mailing cost,
which leaves a fraction ψ of revenue to be counted as net revenue associated with retail
services.

         Based on equations 1-5 above, the welfare criterion may be stated as:

                                          ,                             ,                            (6)
                      ,                       ,                     ,       ,

where ω is welfare per square mile. Observe that maximizing welfare per square mile
maximizes welfare for the entire system. The important insight from equation (6) is that,
given the density of customers that determines demand per unit area, welfare
maximization is based on the selection of postal store spacing at intervals of 2r. This also
determines facility size because D and r determine postal store revenue from equation
(1), R = f(D, r). Once revenue is determined, all the other operating parameters of the
model such as number of windows, facility size, and workers per facility follow
automatically. Thus, the facility location problem can be solved by choosing the
appropriate plant spacing, r, and tracing the implications of this for all other postal store
characteristics using the model.

        For given demand density, welfare per square mile is maximized by setting the
derivative of (6) with respect to r equal to zero:

                                                                                                     (7)

Equation (7) can be solved to determine the optimal market radius between stores in areas
where demand density is given. Recall from the above discussion that fr < 0, gR > 0, hW
> 0, iW > 0, jr < 0, and jS > 0, which implies that the first term on the right side of (7) is
negative, while the other terms are positive. As expected, increasing r tends to have a
negative effect on welfare per unit area due to the fall in revenue as average demand per
square mile falls, but there is a compensating rise in welfare as larger sales per postal
store lowers space cost per square foot. Labor cost per square mile of market area falls as
revenue falls. Clearly the necessary condition to maximize welfare in equation (7) is a

8
 In the general facility location literature, the marginal cost of production would be considered in
determining the location and size of facilities. In the case of the USPS, that marginal cost is the cost of
providing the retail services (buildings and workers) as well as the cost of producing the service (generally
delivery services) which is not formally considered in the analysis. Insertion of the ψ factor is a way of
adjusting gross revenues downward to account for these costs.


                                                      8
function of demand density, D. In these models, the effects of demand density are
complex because a rise in demand density tends to increase costs of additional r because
the fall in revenue with added market area is larger but the fall in cost is larger also.

Relation between the optimum in the model and current USPS operations

        The preceding discussion has provided a general outline of the facility location
problem facing the USPS. The model being constructed is one designed to identify a
pattern of facility location, size, design, and employment that is allocatively or
economically efficient. In order to achieve allocative efficiency, it is necessary that
operations be technically efficient, or to achieve x-efficiency, which requires that all
inputs to the production process be fully utilized and that they be used in the correct
proportions.

        The various functions introduced above, f(.), g(.), h(.), i(.), and j(.), implicitly
assume that technical efficiency has been achieved. The challenge is to use USPS data to
obtain statistically valid empirical estimates of the functions f(.), g(.), h(.), i(.), and j(.).
The model then takes these functions and finds the combination of facility spacing,
numbers, size, windows, employees, revenues, etc that maximizes net welfare, i.e. that
achieves allocative efficiency. In order to do this, the functions must be based on
technically efficient patterns of operation, or on x-efficiency.

         Put another way, the number of windows and employees engaged in revenue-
related functions must be based on facilities that are operating at or near capacity. Even
casual examination of the data on USPS postal store operations indicates that many
facilities have substantial redundancy in windows, space, and perhaps personnel.
Consider, for example, ratios of revenue per window or revenue per clerical employee.
Using POS data, revenue per year (per week in December) per window varied from
$5,700,000 to $4,600 ($80,120 to $126) and revenue per employee per year (per week in
December) varied from $5,810,511 to $1600 ($40,063 to $126).9 Part of this distribution
reflects measurement error, but the mean and standard deviation of revenue per window
per year (per week in December) were $255,915 and $176,916 ($8,285 and $4,013) and
for revenue per employee per year (per week in December) were $164,174 and $152,955
($5,409 and $2,894) respectively. These facilities with low ratios of revenue per window
or per employee are not technically efficient. In some cases, they clearly have significant
amounts of excess capacity.

        It is also possible to find facilities that appear to be x-inefficient by examining the
ratio of windows to workers. Of 15,182 facilities for which POS data allowed
determination of the number of different clerical employees logged on to registers during
a given week and the number of active windows (registers), the ratio of windows to
employees varied substantially. Taking the busy second week in December as a time
when, if ever, operations should approach capacity, there were 1,986 facilities where the

9
  POS data from approximately 14,700 facilities, accounting for over 80% of revenue, were the basis of
these statements about high and low revenue postal stores.



                                                    9
ratio of employees to windows was between 0.1 and 0.6. For these facilities, the number
of windows is clearly too large compared to labor to staff them. In the same week, for
765 facilities, there were two employees per window. Again, this appears to be an
unusually high ratio. These examples illustrate the general point that, in the data on
postal store operations, there are many cases in which the ratio of windows to employees
is far removed from an allocation that would hold under technical efficiency. This leads
to two important points about the relation between the optimum in the model and current
USPS operations.

         First, at many facilities, the costs of producing given postal services are not
currently being minimized. Elimination of this x-inefficiency is partly a problem of
proper facility size and spacing. However, the model is not designed to produce
technically inefficient outcomes so that the gains from elimination of x-inefficiency are
not generated within the model. In order to estimate the gains from elimination of x-
inefficiency, it is necessary to know operating costs of the current facilities and to
compare those operating costs with the costs of technically efficient facilities where
technical efficiency is based on the cost-minimizing combination of windows, interior
space, and retail workers needed to produce the current level of retail services. The gains
from elimination of x-inefficiency have nothing to do with the location and spacing of
facilities that is the object of the modeling effort here. Instead they arise from
redundancy (excess capacity) or inappropriate input ratios of space, windows, and
employees in the current system. The section of this report that applies the model to a
small region contains a rough estimate of the amount of x-inefficiency in the current
USPS system for an area sufficiently small to make the computation tractable given
available data.

         Second, given that the purpose of the model is to optimize facility size and
location, it should be based on estimates of the capacity of windows and employees to
produce revenue when they are being fully occupied by customers. Estimating the
capacity to generate revenue from given inputs of windows, registers, and employees was
a major challenge for this report. As noted above, the ratio of interior space to windows
varies widely across postal stores, in part because of other postal activities occupying the
space. Fortunately, USPS has adopted design and operating standards governing what
i(W) should actually be. These design criteria were used to supplement data on actual
facilities in order to determine the relation between windows and interior space allowing
room for carrier services and P.O. boxes. The ratio of employees to revenue also varies
in the available data but fortunately a very significant and robust relation between
number of windows and employees was found. In order to determine the appropriate
ratio, i.e. in order to calibrate the L = h(W), function, only observations on the L/W ratio
for facilities whose revenue per window indicated that they were operating near capacity
were used. Data from other facilities was discarded. The result is presumably a function
that reflects the relation between windows and employees when production is x-efficient.

        It is important to keep the considerations about the goals of technical and
allocative efficiency in mind when interpreting the results and use of the model
developed here. There are many cases of obvious x-inefficiency in the data. These are



                                            10
likely evident to managers in USPS. The POS data indicates that, in 10% of facilities,
revenue per window is less than $80,000 per year and revenue per employee is less than
$60,000 per year. X-efficiency would require production with fewer windows and/or
employees. While this modeling effort is consistent with such a finding, the result
should be obvious. Elimination of obvious cases of excess capacity and getting the right
ratios among windows, employees, space and revenue can result in substantial cost
savings for USPS and move the system toward x-efficiency.

         The model developed here is designed to take the USPS facility system to the goal
of allocative or economic efficiency by producing the correct postal store sizes and
locations. Making the system x-efficient does not optimize it. The model generates
estimates of the surplus obtained from different sizes and spacing of technically efficient
facilities. Then the model selects the precise size and spacing that, among all technically
efficient options, achieves allocative efficiency. The gains in surplus reported based on
the model simulations reflect the increase in efficiency due to movement between two
technically efficient postal store designs. Given the current system is not even
technically efficient, if USPS moves to a postal store design system based on the model,
it will achieve gains due to the achievement of BOTH technical and allocative efficiency.
This is a very important point. The current x-inefficiency in the USPS system should
provide motivation for adjusting the size of facilities. If changes are to be made in order
to achieve technical efficiency, making those changes consistent with allocative
efficiency can result in significant additional gains for the USPS.

         Given that the model simulations easily demonstrate the gains in allocative
efficiency between a technically efficient set of facilities characterized by the current
pattern of facility spacing and the optimal pattern of size and spacing, some readers will
ask that the full efficiency gains from changing from the current x-inefficient set of
facilities and an allocatively efficient set of facilities be estimated by the model. The
problem is that the model is based on functions that impose technical efficiency on the
solution even though the radius between facilities is not consistent with allocative
efficiency. The model simply will not allow facilities to have five windows, ten thousand
feet of interior space, twelve employees and only produce one million dollars per year in
revenue even if the real world does include such cases of obvious x-inefficiency.
Measurement of the full gain from moving from the present x-inefficient system to an
allocatively efficient alternative requires detailed information on the current state of
actual costs and revenues that would have to be produced from USPS data sources. Some
of this information was not available for this project. The model itself only generates
technically efficient solutions.

         In order to satisfy curiosity regarding the likely relation between gains due to
movement from x-inefficiency to x-efficiency compared to the further gains from moving
to allocative efficiency, a special application of the model to a sample market area has
been implemented as section 6 of this report and section 7 contains rough national
estimates.




                                            11
            3.        Specific Statement of the Problem and Solution
        Going from a general to a specific statement of the postal store location problem
requires that the general functional forms be replaced by specific equations. There are
two steps in this process. First, functions must be replaced with equations that can be
justified in terms of economic theory. Second, the parameters of the equations must be
estimated using USPS data on revenue and facility characteristics.

          This section discusses the first of these tasks. As suggested in the general
solution, there are three fundamental relations to be understood: the determinants of
revenue per square mile (f(D, r), and then the relations between revenue and windows
(g(R)), space and windows (i(W)), employees and windows (h(W)), and space and rents
(j(S, r). As noted above, each of these relations should be based on a facility operating at
or near capacity. In this section, each of these issues is discussed in turn.

Determinants of revenue per square mile of market area

        Demand for retail postal facilities is based on local employment and residential
population. Following standard practice in the literature, assume that demand for retail
postal services is given by:
         
                                                                                   (8)

where q is the quantity of services used by an individual household or firm, P is the price
of postal services, t is the cost of transportation to and from the facility, x is the distance
to the nearest facility and α > 0 and β < 0 are parameters. This is a simple linear
demand curve where the total cost of the services is the sum of the price and the
transportation cost, tx, to access the facility. The problem is simplified by the fact that P
is known to be constant across facilities.

         Assuming that facilities serve a circular market area of radius r so that the market
area is πr2 = A, the distance between facilities is 2r, and that demand for postal services
comes from households or firms (the illustrative equation could apply to either group
although α, β, and t would be different for households and firms), total demand at any
facility is given by:

                  ,
                           2                                                            (9)

where QA is total sales per facility and D = the density of households or firms measured
as households or employees per square mile. There is a direct connection between
equation (9) and equation (1) above, and multiplying by P gives an expression for total
revenue that is equivalent to (1):

                               ,         2                                              (10)




                                              12
Evaluating (10) we find that total revenue per facility can be written as:

                       ,         2                                                                (11)

Recognizing that P is a constant, this equation says that total revenue of a facility is the
product of the total number of households or employees in the market area (πr2D) and a
constant, 2P[(a/2)-bP/2)], and a constant multiplied by the radius of the facility service
area, 2P(-bt/3)r. It is convenient to write equation (11) as:

                       ,                                                                          (12)
or
         
                           ,                                                                      (13)

where πr2D = N is the total number of households or employees (i.e. potential customers)
in the service area of the facility, θ is the constant (aP-bP2), and τ is another constant,
(2Pbt/3) which includes the effects of transportation cost on demand. Note that the
effect of increasing market radius on revenue depends on two effects. First is the
negative effect due to the τr term as higher transportation cost cuts demand by effectively
raising the cost of accessing retail services. As suggested above, fr <0 as average revenue
per square mile falls when r rises. However, raising r increases market area and hence
raises the number of customers (dN/dr = 2πrD > 0). The second effect on f(D,r)A
dominates, and total revenue per facility rises when r increases.10 In the next section,
equation (13) will be shown to provide the basis for the empirical estimation of the
facility revenue equation that is vital to the exercise conducted here.

Relation between revenue and retail input needs

        Postal stores produce retail postal services principally using inputs of labor and
space.11 The challenge is to relate revenue generated, principally walk in revenue, at
stores to required inputs of labor and space that can then be priced to form a cost
function. Fortunately, the USPS collects revenue data through the POS system of wired
registers in a substantial number of retail stores. It is possible to observe the relation
between the number of registers in a store and the amount of revenue. There are obvious
technical reasons to expect that a given quality of service can only be maintained in a
postal store experiencing additional walk-in demand by increasing the number of
operating registers. In the POS data some registers are clearly dedicated to retail
services and are termed “front” and others are “back,” although they sometimes take in
significant amounts of revenue. Some front registers are located at formal front windows
and others at counters. In the POS data it is possible to identify all registers that perform
a significant revenue-generating function and, as noted above, these are termed


10
  There are technical reasons for this result that need not concern us here.
11
  The emphasis here is on operating inputs and operating costs, and general and administrative costs are
ignored.


                                                    13
“windows,” W. It is expected that there should be a relation between total postal store
revenue and required windows that takes the following specific functional form:

                                                                                                    (14)

where: κ is a constant approximately equal to the reciprocal of the annual revenue
expected from operation of a single window and λ is the relation between additional
revenue and the need for added windows.12 It is expected that λ will be slightly less than
unity because adding more registers permits specialization in services and should raise
revenue per window slightly. Note that (14) expresses the relation between annual
revenue per store and number of windows per store assuming that the windows are kept
busy. Clearly, the causality runs from revenue to windows. Doubling windows should
have no effect on revenue unless the previous number of windows was inadequate to deal
with demand and significant lines and wait times were experienced by patrons.
Sometimes window services are used by customers who are not generating revenue. For
purposes of this model, it is assumed that these activities are proportional to revenue
generation and simply reduce the potential of windows to generate revenue. It is possible
in the USPS data to find cases in which facilities with several windows generate very
little revenue. It is important to evaluate (14) based on facilities where the registers are
operating near capacity.

Relation between windows and labor requirements

       Registers must be staffed. While employees have duties beyond direct revenue
generation, the data reveal a reliable relation between windows and the number of clerical
employees operating the registers at each facility.13 The general form of this relation was
determined to be:

                                                                                                    (15)

where φ indicates the clerical employees required to staff a postal store with a single
window and 0 < χ < 1 indicates the rate at which employment expands with additional
windows.14 Returns to scale in staffing arising from the ability to relieve workers
systematically suggests that doubling the number of windows does not require doubling
the number of employees, and the data confirms this expectation.

        Translating labor inputs into labor cost requires an estimate of unit labor cost for
employees. Because workers can be reassigned across facility size categories in a
flexible manner, a constant labor cost was used for all units of clerical labor.


12
   Equation (14) relates to the function in (2) as W = g(R) = κ(RA)λ/A
13
   The analysis relies on the assumption that the non-register activities of employees observed in the data do
not vary systematically with the number of windows. Estimation of equations designed to explain retail
employees consistently revealed that the number of windows is the dominant factor determining
employment. To the extent that this is not true, some adjustment of the relation between size and labor cost
attributed to revenue generation is needed.
14
   Equation (15) relates to the function in (3) as L = h(w) = φ(WA)χ/A


                                                     14
Relation between windows and postal store space needs

         There appear are be two ways to develop the relation between windows and
required postal store space needs. The first is to use the traditional economic approach of
taking data from actual USPS operations to estimate a production relation. Alternatively,
design criteria for facilities and operating standards developed for services can be used to
infer a relation between revenue and space needs. Current postal store designs relate
number of windows to overall area. These two approaches will be discussed in turn.

       First, the traditional economic approach to relate inputs to outputs is through a
production function. In this case, the labor input is ignored, leaving only space input, and
the general form of the postal services production function may be written as:

                                                                                        (16)

where SA is the total size of the facility in square feet expressed as the product of size per
square mile (S) and market area in square miles (A), W is windows per square mile, and μ
and ν are parameters to be determined empirically.15 It is anticipated that μ reflects the
space required for a facility with a single window and 0 < ν < 1 because space needs
increase at a decreasing rate with windows due to certain indivisible space requirements
for doorways, bathrooms, etc. The discussion here is in terms of total space per facility
because that is what is observed in the data and this section is designed to set up the
empirical analysis to follow.

        The second method that could be used to relate postal store size and revenue
would be to use facility design criteria that have been established by the USPS along with
current criteria that relate window operation time to retail revenue. This might be termed
an engineering approach to the production function relation. Currently, the USPS has
postal store design criteria that relate the number of windows and number of carriers
assigned to a facility to the physical size of the facility. This is done through a form of
“look up” table in which different combinations of windows and carriers are related to
different designs.16

        In this report both methods were employed. However, the final model calibration
was based primarily on the second, engineering, approach because it presumably reflects
current USPS thinking about the relation between space and windows. The economic
approach gave larger space requirements which may reflect past policies of providing
greater space per window.




15
  Equation (16) relates to the function in (4) as S = i(W) = μ(WA)ν/A.
16
  At the same time, USPS has standards for labor productivity that relate window operating time to
revenue. Taken together, these standards would allow one to work backwards from retail revenue
expectations for each facility to the size of facility needed to meet those expectations.


                                                   15
Relation between postal store size and cost

        In connection with the setting of P.O. Box fees, the USPS has established a
procedure for estimating the current rental price of its facilities. Based on this work, as
well as the general literature on the relation between the size and rent of office space, the
costs of space should increase at a decreasing rate with facility size. This leads to the
following basic specification of a postal store rental cost equation:

                                                                                        (17)

where CSA is the total rental cost of the facility written as the product of rent per square
mile of market area (CS) and market area (A), and and are parameters to be
determined. Because rent increases at a decreasing rate with size, it is expected that 0 <
  < 1.

        Obviously space costs depend on many factors other than size. Space in an
enclosed mall is usually much more expensive than in a standalone structure. Decisions
regarding location in more or less expensive settings are not part of this study. Space
cost also varies with location, and the model formulated here does consider the effect of
location on rents through variation in the parameter whenever more expensive space is
being considered.

Solving the model

        Recall from equation (6) above that welfare per square mile may be written as the
difference of revenue net of mailing cost and the sum of labor and space cost per square
mile or that:

                    ,                 ,                    ,      ,                     (6)
Or  


Furthermore, when welfare per square mile is maximized, overall welfare is maximized.
The discussion presented above has demonstrated that RA = (πr2D)[θ – τr],

and                                                       2                  Market area
                                            2
of these circular markets is given by A = πr . Then dividing through the expressions for
RA, CSA, and CLA by A and collecting terms a bit gives an expression for ω that is not too
messy:

                                                                              18

The problem is to choose the value of r to maximize ω. This is done by setting the
derivative of (18) equal to zero, i.e. dω/dr = 0. To get some insight into this result note
that λ, ν, λ, χ are all on the (0, 1) interval (actually empirically they all lie on the [0.8,
0.95] interval. This means that the exponents of r such as 2(λχ - 1), and 2(λν -1), are


                                              16
both negative. Consider the three terms in (18). The derivative of the first with respect
to r is negative and the derivatives of the second two terms with respect to r are both
positive. The second derivative of the first term with respect to r is zero and the second
derivatives of the other terms with respect to r are negative. Taken together, this means
that, provided the first derivative is initially positive for lower values of r, equation (18)
should produce an internal maximum of welfare at some level of r as the first derivative
changes from initially being positive so that increasing radius increases surplus, to
negative where increasing surplus decreases surplus.17



       4.       Estimation of the Parameters Needed to Solve the Model
        Based on the above discussion, it is evident that estimates of a number of critical
parameters, specifically ψ, θ, τ, κ, λ, μ, ν, , and will be needed to evaluate the model.
This estimation problem is solved by relying on the theory discussed in the previous
sections, and specifically on equations (13), (14), (15), (16) and (17). This effort
involved bringing together USPS data from a number of sources along with census data
on the characteristics of the areas being served, specifically the number and median
income of households and the numbers of employees by type of enterprise. These data
issues will be discussed first, followed by the estimation results.

Data sources and characteristics

        To perform the statistical estimation and calibration of equations (13), (14), (15),
(16), and (17), it was necessary to collect data from a variety of postal and publicly
available databases. The integration of these data sources to yield the observed
relationships described above is not a straightforward task. However, significant care
was given to understanding the nature of these data prior to integrating them. The core
data collection process is described below.

         It is important to understand that the two major data systems that were identified
in conducting this analysis cannot be linked directly. Relating USPS accounting data to
facility data is critical to the understanding of the facility size problem. This linkage was
conducted through systematic logical merging and visual inspection of the data for this
effort. Serious consideration should be given to developing permanent, and completely
defined, linkages between these two major USPS data sources to ensure postal retail
efficiency.

       To perform the analysis of demand for USPS services in equation (13), revenue
data per postal facility were collected using USPS's Accounting Data Mart (ADM).
Revenue from postal retail services are taken as revenue attributable to either 'walk-in'

17
  The possibility of a corner solution at r = 0 is not important here. As a practical matter, solutions for
sufficiently small radius are not feasible because they would imply operation with fractional, windows and
employees. There is a minimum size of feasible facility due to the need to have at least one window and
retail worker.


                                                    17
revenue or retail revenue based on a detailed analysis that established a relation between
General Ledger Accounting and the Account Identification Codes. Household and
business, including competitive, activity for a given facility was related directly using US
Census ZIP Code Tabulation Area (ZCTA) data and that facility's assigned delivery area.
Finally, the radius of a facility was determined using a standard calculation of distance
between facilities using facility latitude and longitude as provided by the Facilities
Database (FDB).

       The relations between revenue and windows in equation (14) and between
windows and retail employees in equation (15) are based on the above ADM data used in
the demand analysis and on the POS data for individual facilities in 2008. POS data for
two “high demand” weeks (the second weeks in April and December) and one “low
demand” week (the second week in August) were extracted. The ADM data had annual
revenue, the FDB had windows, and the POS data had hourly revenue by register by
employee. This allowed two separate estimates of the relations among revenue,
windows, and employees.

        The calibration of the relation between windows and interior space in equation
(16) is based both on a table of the design criteria for new facilities for engineering
estimates and on estimates from data from the FDB on the relation between USPS
interior area and number of windows. Finally, equation (17) is estimated strictly using
FDB data provided on USPS interior area and FMSWIN data on facility rent.

Specification and estimation of the USPS postal store revenue equation

       Based on the previous discussion which builds the demand for USPS services
from the individual to the market area, the total revenue at a given postal store is given in
general by equation (13) above.

                     ,                                                               (13)

In this particular formulation there is only one type of customer whose density is given
by D, and the total number of customers in the market area of the facility is πr2 D. In
practice, two types of customers can be identified, households and firms. Household
demand is based on the number of households and their median income level. Firm
demand is based on total employment. It may be that some household demand is
expressed at the workplace rather than the residence.

        The τr term reflects the effects of transportation cost to and from the store. To the
extent that this reflects travel by automobile, it is well know that vehicle velocity varies
substantially across space. In particular, travel speed slows in larger cities. The
measurement of travel cost is complicated because travel speeds for various cities vary
substantially by time of day. It is also possible that demand by households and firms in
urban areas is different than that in other areas. Estimates of equation (13) performed
here allow for differences in the effects of population and employment and transportation
cost between larger urban areas and the rest of the U.S.



                                             18
       One other consideration influencing total retail revenue at USPS facilities is the
presence of competition from other mail delivery services. Thanks to the efforts of IHS
Global Insight, two different measures of local competition are available. One is the total
employment in private mail services located in the ZIP Codes served by the postal store,
and the other is the number of these facilities within the market area of the facility.
Given that either measure of competition could reduce effective demand, both were
included in the estimated revenue equation.

         Based on these considerations, the final form of the total revenue equation is:


                                                                       20

where NE is total employment in the market area of the facility, NH is total households in
the market area, U is a 0-1 dummy variable equal to unity in large urban areas, M is
median household income in the area, IP is an index of private mail employment in the
area, IC is an index of competing private mail establishments in the market area, r is the
market radius of the facility (half the distance to nearby postal facilities), ε is a random
error term, and the α’s are parameters to be estimated.18 There is particular interest in α9,
α10, α11, and α12 because these reflect the effect of increased radius on demand, that is,
they reflect transportation cost to the facility, represented by τ in equation (13). The
terms multiplied by the urban dummy, U, allow the effect of households and firms on
demand to be different in large cities and the effects of market radius to differ because of
higher transportation costs. The other estimated coefficients reflect the components of θ
in equation (13).

        Estimates of equation (20) were performed using a variety of statistical techniques
on USPS data for facilities, excluding those in Alaska, Hawaii and the territories.
Facilities reporting revenue under $100 and those with a market area less than one-tenth
of a square mile were eliminated. The preferred estimation was accomplished using
robust regression and is displayed below as equation (20b):19

          13,244.7      971.9      13.6                  48.8          15.2             0.0000344 
                       188.2         117.3                  14.0           39.9             4.7 
                       3.5       21

The number of households and employees in the market area of the store has a major
effect on revenue. Additional employment is more important than additional households.
This may reflect demand by workers based on their workplace or demand by the firms
themselves. Higher household income has a modest positive effect on demand. As
18
   The index IP is 0 when there is 0 private mail employment in the service area of the facility, 1 if
employment is between > 0 and < 10, 2 if employment is at least 10 and < 20, 3 if employment is at least
20 and < 30, etc. Similarly, the IC index is 0 if there are 0 competitors in the service area, 1 if there is 1
competitor, 2 if there are 2 competitors, 3 if there are 3-5 competitors, and 4 if there are 5 or more
competitors.
19
   This equation was estimated using 21,898 observations with F(11, 21,886) = 38,000. The t-ratios of the
estimated coefficients were all larger than 4.0.


                                                      19
expected, the presence of competitors reduces demand, and the effect of a larger market
area also reduces demand. Location in a large urban area increases the effect of market
radius on demand for employment as expected, but it also reduces the effect of
households on demand. It is not surprising that, relative to household demand,
employment demand is more important in larger urban areas. In general, the effect of
households on demand for USPS services is lower in large urban areas. All estimated
coefficients are highly statistically significant. This will be used as the basic demand
equation in the simulation experiments performed in the next section.

        The results in equation (21) provide some insight into the determinants of demand
at individual postal stores. It is encouraging that the signs of the estimated coefficients
and their general magnitudes agree with prior expectations. This effort to understand
demand is directed toward the purpose of a spatial model in which the effect of proximity
is of major importance. The results presented here should not be confused with a more
fundamental examination of the determinants of the demand for retail services which
should involve, at a minimum, greater disaggregation of both household and employment
by type as well as greater consideration of the relation between distance and actual
transportation cost.20

Issues in model calibration due to nonlinear relation between radius and area

         In this report, models will be calibrated based on data on actual USPS postal store
operations. Similarly, model solutions will be related to the current state of USPS facility
size and spacing. When this is done, some caution must be exercised because
comparisons will be based on averages for a given area but averages are a linear
aggregation of magnitudes and spatial aggregation is often nonlinear. Indeed, the model
itself is very nonlinear.

        Consider the follow illustration of a potential confusion that can arise in the
spatial aggregation process. Assume that there are two facilities and that each has a
market radius of 2 miles. The average radius will be 2 miles and the average market area
will be 3.14(22) = 12.56 square miles because each market area is identical. Now assume
that there are two facilities whose market radii are 1 and 3 miles. The average market
radius is still 2 but the market areas are 3.14 (for the 1 mile radius) and 3.14(32) = 28.26
(for the 3 mile radius). Thus the average market area is (3.14 + 28.26) = 15.7. Average
area in the “real world” where the radius varies, will be larger than average area in the
model solution where radius is constant. In general, the greater the variance in the radius,
the larger the excess market area above that calculated based on the average radius.

         When comparing results from the model simulations where radius is constant with
magnitudes in actual USPS data, the difference between the market area of an average
radius when radius is uniform and the real world where the variance in the radius is
significant, should be considered. The difficulty can usually be overcome, in this case,
by working in average area per postal store. Alternatively, analysis can only be done for
facilities with similar market radius. In the calibrations reported here, one or the other of

20
     It would also be useful to consider the precise shape of the market area.


                                                        20
these approaches is taken to avoid aggregation problems. This example is illustrative of
the care that is needed when interpolating between model outcomes presented here and
current USPS operations.

Specification and calibration of the USPS revenue per window equation

       The relation between revenue and number of windows in the postal store was
estimated using the same dataset that served as the basis for the demand estimation and
the POS dataset discussed above. Measures of the number of “front” registers and
“back” registers along with their time of operation and revenue generation are included in
the POS data along with the number of windows in the store.

         The general form of equation (14) relating windows to revenue, WA = κ(RA)λ,
appears straightforward. There are difficulties in estimating the values of the parameters
κ and λ. First, the total number of windows, WA, is an integer, whose value at RA = 0
should, of course, equal 0. The analysis should focus on values for WA = 1, 2, 3, or 4 as
these constitute the relevant range for most retail stores. Second, this is a frontier relation
in that it reflects the revenue per window achievable under x-efficiency. Observations
from the many facilities that have more windows than necessary, as evidenced by the fact
that they are never, or hardly ever, shown to be open in the POS data, should be ignored.

         Because of the need to observe a frontier, where the relation between windows is
based on high rates of utilization, is so important, three approaches were taken to screen
out observations from inside the frontier. First, mean revenue per window for different
numbers of windows was computed using only observations in which revenue per
window was more than one standard deviation above the mean. Second, only facilities
where all the windows were operating for most of the time during selected high-demand
weeks (the second week in December and April) were used. Third, the demand equation
in (21) was used to estimate demand at each facility, and those facilities where demand
per window was predicted to be one standard deviation above the mean were used. In all
three cases, a clear pattern was observed in which, for facilities judged to be on the
frontier, revenue per window for facilities with one window was approximately $400,000
per year and revenue per window increased slightly as the number of windows
increased.21 As a result of this, the value of κ was set at 0.000005 and the value of λ was
set at 0.95. Under these parameters, the relation between windows and revenue reflects a
postal store that is technically efficient.

         A further check on the calibration of revenue per window was done using data
from the Window Operations Survey (WOS) for FY 2008. All of the facilities reporting
actual hours equal to earned hours were examined. Average annual revenue per hour of
actual window operation was computed and, when this was multiplied by annual hours
per window, the average annual revenue per full time window in operation at these
facilities was found to be $642,720, well above the $400,000 set as efficient revenue per
window in this model calibration. Indeed, taking the facilities for which earned hours

21
  The pattern of revenue per window was also tested for the two high demand weeks, and the small
increase in revenue per window with number of windows was observed.


                                                  21
were only 75% of actual hours as a standard, average annual revenue per window in full
time operation at these facilities was $483,049 and this is also significantly above the
standard for technically efficient revenue per window used in this model calibration.
Clearly the standard for technically efficient window operation adopted here is not
particularly rigorous compared to USPS standards for earned hours.

Specification and calibration of the USPS labor per window equation

        Like the revenue per window equation, the labor per window function, given in
equation (15) above as                                    , is also a frontier concept. It is
supposed to reflect use of labor in a technically efficient fashion, i.e. at facilities where
revenue per employee and window is high. There are some facilities for which the ratio
of clerical workers per window is quite high, i.e. greater than two. In such cases, it is
likely that these workers are performing a variety of duties unrelated to revenue
generation. Fortunately, the POS data allow observation of the hours spent logged in to a
register by individual employee identification code by day for each facility. It is possible
to identify the number of different employees who spent a significant amount of time at
terminals during each of the three weeks that were observed (the second weeks in
December, April, and August). Employees who logged on for less than 10 hours per
week were not counted as retail employees. Estimates of the parameters in equation (15)
were based on facilities where the same numbers of workers were spending significant
time logged on to a register during each of these three weeks.22 The estimates were all
based on facilities where the retail operation appears to be operating near capacity so that
they were judged to be technically efficient. In this case, facilities with revenue per
window above $250,000 per year were selected.

         As anticipated, employees per window falls with the number of windows, and the
fitted parameters of equation (15) were φ = 1.6 and χ = 0.9. Thus, within the data on
facilities with revenue per window greater than $250,000, those with one window had an
average of 1.6 employees per window and this ratio fell slowly as the number of windows
increased. Essentially, fitting the and χ parameters was accomplished based on a table
of the mean values of retail workers for facilities with different numbers of windows
subject to the requirement that revenue per window exceeded $250,000. The value
was the mean for facilities with one window and χ was fitted based on the rate of decline
in retail workers per window as windows expanded beyond one.

         To be counted as a retail employee in this analysis, a worker must be logged on to
a retail terminal for a significant amount of time in a week and three separate weeks in
the year were observed. Clearly workers counted as retail employees did not need to be
logged on to the terminal 8 hours per day. It is assumed that they have a variety of other
activities to perform that are based on retail activity that are performed when they are not
at the window. The crucial relation in the model is that there is a stable relation between
windows and workers so that reducing the number of windows should permit reduction in

22
  This does not mean that the employees in one month were the same as those in another month. The
employee counts were based on a single week in each month. It does mean that the number of retail
workers counted in each of the three months was constant.


                                                 22
employment. In addition to the other tests noted above, this hypothesis was tested by
using the number of windows to measure the number of workers in each facility,
regardless of revenue. Then other variables were added to the model to see if the number
of windows was actually the cause of the number of employees. The testing
demonstrated that this was the case. Windows explains workers and the relation is
remarkably stable even when other possible intervening factors are added to the model.
Accordingly, if windows cause workers, reduction in windows should permit reduction in
workers.

Specification and calibration of interior space per window

        The functional form selected for the relation between interior space and number
of windows was given in equation (16) by:                                      . This is also a
frontier relation which should be measured for facilities operating under x-efficiency.
Empirical estimation of (16) using data from the FDB produced estimates of space
required that were well in excess of the standards embodied in current USPS designs in
the 2007 USPS SSDB Re-Sizing Table (revised 6/28/2007). Given the forward-looking
nature of this report, an engineering approach was taken to the evaluation of the
parameters of (16) using the standards for retail facilities in the table. These standards
allow for P.O. Box sections and carrier workroom space that is an increasing function of
the number of windows (or counters as they are termed in the table). While there are
several alternative designs in the table, it appears that 1,800 square feet is an average
standard for a postal store with a single counter and that space increases at a slightly
decreasing rate with the number of counters. Accordingly, equation (16) was
parameterized by setting μ = 1,800 and ν = 0.9. Thus, a facility with one window
occupies 1,800 square feet of interior space, including the service lobby, P.O. Box lobby,
workroom for mail processing, bathrooms, etc. This increases to 3,359 square feet for
two windows, 4,839 square feet for three windows, etc.

Specification and calibration of cost per square foot

        Estimation of cost per square foot has been accomplished using the FDB in
support of P.O. Box fee-setting for over a decade. This provides substantial evidence on
the parameters of equation (17),                                                                .
Specifically, it is well established that the cost per square foot falls with facility size and
that the elasticity of cost with respect to size is about 0.8, i.e. = 0.8. is the cost per
square foot appropriate for the real estate market under consideration and ranges from
under $5 per square foot in rural areas to over $25 per square foot in the higher density
portions of larger urban areas. Cost per square foot also varies with quality of the space,
with retail space in malls being particular costly. Decisions regarding structure quality,
beyond the minimum needed to meet USPS criteria, are not the objective of this model
and will play no role in the analysis. Any cost differences or cost savings reported here
are not based on changing the quality of the retail space occupied by the USPS.




                                               23
           5.       Demonstrating Characteristics of the Fitted Model
        The model described above can be solved to determine the welfare-maximizing
spacing and size of retail postal facilities as a function of the density of market demand,
including both households and firms, the presence of competitors, household income, and
location effects, including differences in the rental price of retail facilities and indicators
of transportation costs that vary spatially. The model can also be operated to generate the
general level of expected performance of facilities in different locations. Both of these
ends are nicely demonstrated by solving the model numerically and demonstrating its
predictions for the market for postal services. This section demonstrates some of these
model capabilities by using the model to simulate a number of alternative market
conditions that the USPS faces and answer some hopefully interesting questions about
current USPS operations.

Economics of postal store location in large urban areas versus rest of the U.S.

        Investigation of the demand for USPS services indicated that the structure of
demand was different in large urban areas than in the rest of the U.S. This is evident in
the estimation results for equation (21) reported above where the effect of households and
employment on demand is different in large urban areas than in the rest of the data.
Compared to residential households, employment is a relatively more important
determinant of demand in large urban areas. Also, the effect of market radius on demand
for services is greater in large urban areas.

        In addition to differences in the parameters of the demand equation, the costs of
space are higher in large cities. There are also differences in the density of households
and employment and in the density of competition. These differences lead to rather
different implications for the allocatively efficient size and spacing of facilities between
large urban areas and the rest of the U.S., and the nature of postal store operations is
generally very different. All this is illustrated in Tables 1 and 2 and the accompanying
figures below.

        Table 1 and the associated Figure 1 show the solution of the model for postal
stores located in large urban areas based on both the demand function in those areas and
the higher density of households and firms and high space cost. A total of 3,423 postal
stores fall into this category.23 The average household density in these areas is 2,259 per
square mile, employment density is 355 per square mile, and median household income is
$62,382 per year. The model shows that allocative efficiency is achieved when net
revenue per square mile is maximized at about $29,801 per square mile with a market
radius of 2 miles. The postal store associated with this maximum has approximately 4
windows, 6 retail workers, 6,600 square feet of interior space and 1.73 million dollars per
year in revenue. The table also shows the performance characteristics of choosing
alternative patterns of postal store spacing.


23
  The 3,423 also reflects the number of facilities with sufficiently complete data to be used in computation
of characteristics of the actual condition of facilities in this group.


                                                    24
          The actual radius of all the postal stores in these urban areas was 2.1 miles and
revenue per facility was 1.25 million dollars. The model estimate of allocatively efficient
radius of 2.0 miles matches the average for this group of 3,423 postal stores. The fact
that spacing of postal stores in this sample of urban areas is consistent with the spacing
suggested for allocative efficiency does not imply that the size or spacing of these
facilities is efficient for two reasons. First, the analysis is based on “average” spacing
and, in a sample that aggregates over all large urban areas, the average may be
appropriate but its detailed distribution on a city by city basis may be flawed. However,
the evidence is that, the spacing of these facilities is not grossly inefficient. There may
still be problems of lack of technical efficiency as the analysis is disaggregated to the
individual MSA level. Nevertheless, the fact that the average size for all postal stores in
the sample is about 7,000 square feet, compared to the optimal 6,600 square feet indicates
that facility size is not, on average, inconsistent with allocative efficiency either.24

        Second, the discussion thus far has not considered technical efficiency of the
actual postal stores found in these large urban areas. The results for allocative efficiency
above were based on the assumption that the actual size, in terms of interior space,
number of windows, and clerical staffing was technically efficient. Technical efficiency
requires that the actual sizes be efficient given the actual demand for services at each
postal store. Measurement of technical efficiency for over 25,000 postal stores is limited
because the number of windows in operation and the level of clerical staffing are only
observed for facilities with POS terminals. Nevertheless, a rough estimate of technical
efficiency can be obtained by using data from the POS facilities to impute windows and
retail workers for the non-POS postal stores. In the case of the following analysis, this
imputation was done by relating facility size (interior space) to numbers of windows and
workers for those facilities with POS terminals and then using the resulting relation to
estimate windows and workers for non-POS postal stores.

        The result of the imputation is that the average numbers of windows, retail
workers, and interior space can be substituted into the cost equations and the imputed
characteristics of the actual postal stores in large urban areas can be compared to the
technically efficient costs. In Table 1 below, a technically-efficient facility serving the
allocatively efficient average market radius of 2 miles has 4.2 windows, 5.8 retail
workers, 6,568 square feet of interior space. Total cost for the 12.56 square mile market
area is $489,733 or $38,991 per square mile. The imputed characteristics of the current
average postal store in large urban areas, where actual market radius is about 2 miles, are
2.95 windows, 4.63 workers, and 16,484 square feet of interior space. This yields an
imputed cost per square mile of $33,275. This is a remarkable $5,716 less than the
technically efficient cost per square mile.

        Compared to the technically efficient postal store, actual facilities have fewer
windows and retail workers but more interior space on average. Is it possible that the
actual operation of USPS retail postal stores in large urban areas has achieved some kind

24
  Specifically, average facility size for those facilities with < 20,000 square feet is 7,000 square feet.
Larger facilities likely include significant mail processing and/or vehicle storage and maintenance
activities.


                                                       25
of super efficiency? Are the standards for technical efficiency in the model too low?
Alternatively, it may be that the numbers of windows and employees provided in these
facilities in large urban areas are too small resulting in long lines and poor service.
Insight into these questions is gained from comparing the actual revenue per facility with
model estimates based on the demand equation. Actual revenue per facility is $1.25
million compared to the demand model estimate of $1.7 million, a difference of almost
$40,000 per mile of market area. The reason that the model requires more windows and
retail workers is that the model generates estimates of significantly more revenue than the
actual postal stores generate. Although these are rough estimates based on averages over
thousands of postal stores, the suggestion is that, while the average spacing of postal
stores (and hence the average number of facilities) is consistent with allocative
efficiency, the number of windows and clerical staffing per facility appears to be too low
given the demand for postal services.

        For reasons stated in the appendix, the Mystery Shopper Dataset could not be
usefully related to the demand model but it may be that significant waiting time at postal
stores in large urban areas deters potential customers from using the USPS. A rough
estimate of the net revenue loss per square mile due to this under provision of window
space would be $40,000 of extra revenue per square mile less approximately $6,000 in
extra cost per square mile or $34,000 per square mile. This is slightly larger than the net
benefit per square mile of the average postal store in a large urban area under allocative
efficiency, i.e. it is substantial. Some caution is warranted here because these estimates
are based on averages of very large and diverse facilities located across all large urban
areas. Still, the analysis of technical and allocative efficiency is consistent in the
conclusion that the number and spacing of postal stores in large urban areas is appropriate
on average and that the number of windows and workers or alternative mechanisms for
providing retail services should, if anything, be larger.




                                            26
                                                               Table 1
                                            Estimated Revenue and Cost at Different Radii for
                                                          Large Urban Areas
 Radius                                                                                  Interior                    NetRev
 (miles)                             Revenue ($)      Windows       Employees            Space (sf)      Cost ($)   ($)/SqMi
       0.5                               146,186           0.4             0.7                   795      60,711      15,773
      0.75                               302,700           0.8             1.3                 1,481     112,208      22,161
         1                               510,656           1.3             2.1                 2,316     174,552      25,725
       1.5                             1,055,126           2.6             3.8                 4,308     322,503      29,025
         2                             1,728,068           4.2             5.8                 6,568     489,733      29,801
       2.5                             2,477,950           5.9             7.9                 8,939     664,648      29,265
         3                             3,253,245           7.7            10.0               11,282      837,166      27,935
       3.5                             4,002,422           9.4            12.0               13,469      998,012      26,081
         4                             4,673,953          10.8            13.7               15,379    1,138,339      23,858
       4.5                             5,216,309          12.0            15.0               16,892    1,249,452      21,368
         5                             5,577,959          12.8            15.9               17,889    1,322,572      18,680
       5.5                             5,707,375          13.1            16.2               18,243    1,348,563      15,846
         6                             5,553,028          12.8            15.8               17,820    1,317,554      12,907
       6.5                             5,063,387          11.7            14.6               16,468    1,218,306        9,900
         7                             4,186,925           9.8            12.4               13,998    1,036,897        6,867
Employment density = 355 workers/square mile; residential density = 2,259 households/square mile;
income = $62,382.

Figure 1

                                           R adius  v s . Net R ev enue per S quare Mile: 
                                                          L arg e Urban Areas
                           $35,000

                           $30,000
   Net R evenue per s qm




                           $25,000

                           $20,000

                           $15,000

                           $10,000

                            $5,000

                               $0
                                     0        1           2            3             4            5            6    7
                                                                      R a dius (Mile s)
                                            E mployment/s qm =  355; HH/s qm =  2,259; Inc ome/HH =  $62,382




                                                                           27
        Table 2 and Figure 2 illustrate the model solution in the average area outside large
cities. This includes smaller cities, towns, and rural areas. The average density of
households is dramatically lower at 130 per square mile as opposed to 2,259 for large
cities. Employment density is 26 per square mile compared to 355 and there are fewer
competitors. The model is solved for the revenue, employment, and size implications of
alternative market radii separating postal stores under conditions of technical efficiency.
Allocative efficiency is achieved when net revenue per square mile is maximized at
$4,589 when market radius is 6 miles. This is a substantial contrast to the large city
solution where net revenue per square mile is larger by a factor of 6.5 and radius was
one-third as great. The postal store that maximizes net revenue per square mile has
between 5 windows, approximately 7 employees and 8,000 square feet of interior space.

         Data on actual postal stores in this outside large city group indicates that the
average radius is 4.7 miles, revenue is only about $410,000 per year, and the average
facility size is only 3,100 square feet.25 There are 22,811 postal stores in this group.

        Comparing allocative efficiency with a radius of 6 miles with the actual radius of
4.7 miles from Table 1 it appears that net revenue per square mile is $75 ($4,589 -
$4,514) per mile higher with a radius of 6 miles. This may seem like a small margin but
the 22,811 postal stores in question have an average market area of 106 square miles and
this means that the total difference in annual net revenue per square mile is approximately
$180 million per year. This is a rough estimate of gains that could be achieved because it
is an average over areas with very different levels of service. In general, the greater the
geographic disaggregation, the larger the welfare gains from right-sizing and right-
spacing the postal stores.

         It is also possible to conduct an analysis of the technical efficiency with which
retail services are currently produced. As discussed above for the case of postal stores in
large urban areas, the challenge for measuring costs of current operations is that numbers
of windows and retail workers are only observed for POS postal stores. Once again, the
answer to the missing observations is to impute the numbers of windows and retail
workers. The imputation produced estimates, for the average facility, of 2.13 windows,
3.46 retail workers, and 4,764 square feet of interior space for the 22,811 postal stores in
the non-urban sample. This produced a cost per square mile of market area of $4,486.
These magnitudes are all substantially above the technically efficient averages of 1.1
windows, 1.75 workers, 1,964 square feet of interior space, and $2,264 cost per square
mile for technically efficient facilities located with a market radius averaging 4.5 miles.
The difference in cost per mile, $2,222 = $4,486 - $2,264, when multiplied by the 22,811
postal stores and the 106 square miles of average market area produces an increase in
total cost due to technical inefficiency of $5.4 billion dollars per year. The standard
cautions regarding estimates based on imputed values of windows and employees as well
as averages computed over all facilities located outside large urban areas are in order
here. It may be that relation between the size and number of active retail windows in

25
  Note that predicted revenue at a radius of 4.5 miles is much larger than actual revenue. This illustrates
the difficulty of applying the demand model to large diverse areas and also may point to a further problem
in revenue generation in low demand density area.


                                                    28
non-POS facilities is much lower than that for POS facilities. If true, the technical
inefficiency estimate would be substantially lower. Furthermore, the ratio of employees
per window for non-POS facilities may be significantly lower than that for POS facilities.
This would also lower the $5.4 billion dollar per year estimate of technical inefficiency.
Even if this cost figure were reduced by half due to systematic differences between POS
and non-POS facilities, the annual cost of technical inefficiency is impressive and the
question of differences between facility types should be investigated.


                                        Table 2
                     Estimated Revenue and Cost at Different Radii for
                                   Non-Urban Areas
 Radius                                                  Interior                        NetRev
 (miles)     Revenue ($)      Windows      Employees     Space (sf)       Cost ($)      ($)/SqMi
       0.5        32,799           0.1            0.2            222       16,505            -134
         1        89,932           0.3            0.5            525       38,814           1,959
       1.5       182,347           0.5            0.9            960       70,721           2,895
         2       307,748           0.8            1.3          1,502      110,308           3,469
       2.5       463,839           1.2            1.9          2,133      156,320           3,852
         3       648,324           1.7            2.5          2,841      207,797           4,118
       3.5       858,907           2.2            3.2          3,613      263,945           4,303
         4     1,093,291           2.7            3.9          4,441      324,072           4,430
       4.5     1,349,181           3.3            4.7          5,316      387,561           4,514
         5     1,624,280           4.0            5.5          6,230      453,848           4,564
       5.5     1,916,292           4.6            6.4          7,175      522,408           4,587
         6     2,222,922           5.4            7.2          8,146      592,751           4,589
       6.5     2,541,872           6.1            8.1          9,136      664,408           4,572
         7     2,870,847           6.8            9.0        10,138       736,934           4,540
       7.5     3,207,551           7.6            9.9        11,146       809,899           4,495
         8     3,549,687           8.3           10.8        12,155       882,889           4,438
       8.5     3,894,960           9.1           11.7        13,159       955,498           4,373
         9     4,241,073           9.9           12.6        14,153     1,027,335           4,298
       9.5     4,585,731          10.6           13.4        15,130     1,098,012           4,216
        10     4,926,636          11.4           14.3        16,087     1,167,151           4,128
        11     5,588,007          12.8           15.9        17,916     1,299,323           3,934
        12     6,206,816          14.2           17.4        19,600     1,420,905           3,721
        13     6,764,695          15.4           18.8        21,096     1,528,985           3,493
        14     7,243,276          16.4           19.9        22,366     1,620,654           3,251
Employment density = 26 workers/square mile; residential density = 130 households/square mile;
income = $45,269.




                                               29
Figure 2

                                            R adius  v s . Net R ev enue per S quare Mile: 
                                                            Non‐Urban Areas
                          $5,000

                          $4,000
  Net R evenue per s qm




                          $3,000

                          $2,000

                          $1,000

                              $0

                          ‐$1,000
                                    0   1    2       3      4     5      6      7      8    9    10     11    12   13   14
                                                                        R a dius (Mile s)
                                                  E mployment/s qm =  26; HH/s qm =  130; Inc ome/HH =  $45,269



         Clearly, location in large cities generates far larger net revenue per unit area than
in the rest of the country. Total surplus per postal store is the multiple of area and surplus
per unit area. Because market area increases with the square of the radius, the total
surplus of the large city postal store is $374,300 while the total surplus of the optimal
facility outside a large city is $518,740. Differences in surplus per postal store are far
smaller than differences in surplus per square mile, and total surplus is actually larger for
the facility outside large cities because the market area is 113 square miles instead of 12.5
square miles.

         Maximization of total surplus across the nation is achieved by maximizing net
revenue per square mile and then multiplying by the 4.1 million square miles of U.S.
territory. The dataset used in this study has 28,110 postal stores whose market area totals
2,681,694 square miles. The mean overall market radius is 4.33 miles. The mean market
radius in large urban areas is 1.9 miles, virtually identical to the optimal radius produced
in the results in Table 1. The mean market radius in the remainder of the sample is 4.7
miles, considerably smaller than the 6.0 miles characterizing the surplus-maximizing
solution in Table 2. These results suggest that the actual market radius of postal stores,
and by extension the number of postal stores, in larger urban areas is close to the
optimum and that there are too many postal stores placed too close together in the rest of
the country. Note that the implication for the number of facilities of having a radius of 6
miles is dramatically different than for 4.7 miles. The ratio of market areas is
approximately 2 to 1 (actually 113/69 or 1.64 to 1), implying that the optimal number of
facilities in the portion of the U.S. outside the largest cities is 61% of the current number.

       The analysis of technical efficiency in large urban areas compared to the rest of
the U.S. (the “non-urban areas), although requiring imputation of some very important


                                                                           30
data, produces results that are quite complementary with those from the analysis of
allocative efficiency. For large urban areas, the number and spacing of current USPS
facilities appears consistent with allocative efficiency and the numbers of windows and
workers available appears to be slightly below that needed for technical efficiency. It
may be that, in large urban areas, failure to provide adequate retail inputs is costing the
USPS significant amounts of revenue. Further study of waiting times and revenue would
be needed to make such a determination. For the rest of the U.S., just as allocative
efficiency requires fewer postal stores located farther apart, technical efficiency implies a
substantial reduction in the number of windows and workers. The estimated gain from
moving from the current level of operations in these non-urban areas to a technically
efficient condition is $5.4 billion per year and the further gain if these changes were
associated with a move to an allocatively efficient number and spacing of postal stores is
$180 million per year. Although these are estimates and better data on non-POS facilities
might change them significantly, their magnitudes suggest that using modern modeling of
facility location could achieve substantial gains for the USPS.

Solving the model for the average location in the U.S.

        It is also possible to illustrate operation of the model by solving for the average
location in the U.S. This involves reestimating the demand equation without the urban
dummy variable, inserting the average household and employment densities and the
overall median income for the country, and solving the model again. The results are
displayed in Table 3, and the relation between radius and net revenue per square mile is
shown in Figure 3.




                                             31
                                                               Table 3
                                            Estimated Revenue and Cost at Different Radii for
                                         U.S. Average Employment and Residential Density Areas
 Radius                                                                                      Interior                       NetRev
 (miles)                             Revenue ($)          Windows      Employees             Space (sf)       Cost ($)     ($)/SqMi
       0.5                                17,277               0.1            0.1                    128        9,688        -1,337
         1                                67,615               0.2            0.4                    411       30,720            983
       1.5                               148,771               0.4            0.7                    807       59,922          2,047
         2                               258,502               0.7            1.2                  1,294       95,737          2,668
       2.5                               394,568               1.0            1.7                  1,858      137,067          3,068
         3                               554,727               1.4            2.2                  2,486      183,041          3,338
       3.5                               736,736               1.9            2.8                  3,169      232,922          3,521
         4                               938,353               2.4            3.5                  3,897      286,061          3,645
       4.5                             1,157,336               2.9            4.1                  4,662      341,873          3,724
         5                             1,391,444               3.4            4.9                  5,458      399,818          3,769
       5.5                             1,638,434               4.0            5.6                  6,276      459,394          3,788
         6                             1,896,065               4.6            6.3                  7,111      520,125          3,785
       6.5                             2,162,095               5.2            7.1                  7,955      581,558          3,765
         7                             2,434,281               5.8            7.8                  8,804      643,257          3,730
       7.5                             2,710,381               6.5            8.6                  9,651      704,802          3,682
         8                             2,988,155               7.1            9.3                10,491       765,786          3,624
       8.5                             3,265,359               7.7           10.1                11,318       825,809          3,557
         9                             3,539,752               8.3           10.8                12,126       884,483          3,481
       9.5                             3,809,091               8.9           11.5                12,911       941,421          3,399
        10                             4,071,136               9.5           12.1                13,666       996,246          3,310
        11                             4,564,371              10.6           13.4                15,070     1,098,056          3,117
        12                             5,001,523              11.6           14.5                16,296     1,186,927          2,906
        13                             5,364,654              12.4           15.4                17,302     1,259,875          2,681
        14                             5,635,830              13.0           16.0                18,047     1,313,871          2,444
Employment density = 20 workers/square mile; residential density = 350 households/square mile;
income = $50,000.

Figure 3

                                             R adius  v s . Net R ev enue per S quare Mile: 
                                                                 All Areas
                           $5,000

                           $4,000
   Net R evenue per s qm




                           $3,000

                           $2,000

                           $1,000

                               $0

                           ‐$1,000

                           ‐$2,000
                                     0   1    2       3      4     5      6      7      8       9    10    11   12   13   14
                                                                         R a dius (Mile s)
                                                   E mployment/s qm =  20; HH/s qm =  350; Inc ome/HH =  $50,000




                                                                            32
         The radius that maximizes net revenue per square mile is 5.5 miles and the net
revenue per square mile is $3,788. The facility size is fairly large, with about $1.64
million in annual revenue, 4 windows, 6 retail workers, and 6,300 square feet of interior
space. The spacing of this average solution is close to that for the area outside large cities
in Table 2, but the size of facility is much smaller. This is not surprising because only
3,452 of the 26,263 observations are in large cities.26 However, this average result
illustrates a general point. In a non-linear model, the average solution may not fit any
given area very well. The previous result that radius in large cities is currently close to
optimal, while that in the rest of the sample is far too large, is blurred as, for the entire
sample, the optimal radius is 5.5 miles and the actual is only 4.33 miles. Clearly,
aggregation in this model can conceal important information. The revenue per postal
store reported in Table 3 is based on a single equation imposed on the entire country.
Comparing these results with those in the other tables where revenue is based on
estimates reported as equation (21) where large urban areas were allowed to have
separate effects illustrates the general advantage of adapting the model to specific
geographic areas. Such geographic disaggregation is illustrated in Section 6 of this report
which reports results of a case study of the Buffalo area.

Solving the model for high density urban areas and low density rural areas

        Given the substantial differences between large urban areas and the rest of the
country, it is interesting to go a step further and consider the difference in allocatively
efficient solutions between high density urban areas and low density “rural” areas. This
is done by using the large urban demand equation for the high density urban areas and the
non-urban demand equation for the rural areas. In Tables 1 and 2 the differences in
outcomes were due both to differences in the demand equation and differences in density
and rent. Any further differences between the results in Tables 4 and 5 in this section
compared to Tables 1 and 2 is due to the effects of density and rent per square foot of
space between high density urban areas and all large cities and between low density rural
areas and the non-large city areas in Table 2.

        Table 4 and Figure 4 illustrate that a radius of 1 mile maximizes net revenue per
square mile at $77,365 in high density urban areas. This is half the radius and 2.6 times
the surplus per unit area found in Table 1 for the average of all large cities. Greater
density is, by itself, very important. Household density in the high density sample is
6,900 per square mile (compared to 2,259 for all urban areas) and employment density is
2,000 per square mile (compared to 355 for all urban areas).27 The number of postal
stores falls from 3,452 to 271.28 With the smaller market area (radius = 1 mile rather than
2), revenue per facility is smaller (1.21 million versus 1.73 million), as are the number of
windows (3 versus 4) and size (4,800 square feet as opposed to 6,600).

26
   The 26,263 observations are facilities with sufficiently complete information that passed a process of
casewise deletion to eliminate measurement error.
27
   To put these numbers in perspective, Montgomery County, Maryland, has employment density of 888
and household density of 1,530 while Washington, D.C. has employment density of 4,332 and household
density of 4,072 per square mile.
28
   High density areas were selected so that household density was one standard deviation above the average
density for all large urban areas.


                                                   33
        The 271 postal stores that meet this high density urban criterion have an average
market radius of 0.8 miles and revenue of $1.26 million per year. Comparing allocative
efficiency of postal stores in high density urban areas with a radius of 1 mile compared to
the actual 0.8, it appears that net revenue per square mile is $3,388 ($77,365 - $73,977)
higher. Given that there are 271 postal stores with average market area of 2.3 square, the
extra annual surplus associated with allocative efficiency totals $2.1 million per year.
These results suggest that efficiency gains from adjusting the sizes and spacing of postal
stores in high density urban areas are not likely to be large.


                                                               Table 4
                                            Estimated Revenue and Cost at Different Radii for
                                                       High-Density Urban Areas
 Radius                                                                               Interior                        NetRev
 (miles)                             Revenue ($)     Windows        Employees         Space (sf)          Cost ($)   ($)/SqMi
       0.5                               358,152           1               1.5              1,710         129,339      63,359
      0.75                               737,941           2               2.8              3,173         238,307      73,978
         1                             1,210,314           3               4.3              4,844         362,228      77,366
       1.5                             2,295,891           6               7.4              8,374         623,024      74,299
         2                             3,341,044           8              10.3            11,542          856,284      64,828
       2.5                             4,071,933          10              12.1            13,669        1,012,693      52,141
         3                             4,214,720          10              12.5            14,077        1,042,733      37,673
       3.5                             3,495,564           8              10.7            11,996          889,748      22,307
         4                             1,640,627           4               5.6              6,283         468,659        6,999
Employment density = 2,000 workers/square mile; residential density = 6,900 households/square
mile; income = $43,698.



Figure 4

                                           R adius  v s . Net R ev enue per S quare Mile: 
                                                    Hig h‐D en s ity  Urban Areas
                           $90,000
                           $80,000
   Net R evenue per s qm




                           $70,000
                           $60,000
                           $50,000
                           $40,000
                           $30,000
                           $20,000
                           $10,000
                               $0
                                     0                 1                      2                     3                4
                                                                      R a dius (Mile s)
                                               E mployment/s qm =  2,000; HH/s qm =  6,900; Inc ome/HH =  $43,698




                                                                        34
         Table 5 and Figure 5 display results for low density rural areas which uses the
demand function for areas outside large cities and lower density and rent. Specifically,
household density is set at 11 and employment density at 1, well below the 130 and 26
for all observations outside larger urban areas. These densities were selected to reflect
rural conditions that characterize a substantial fraction of USPS postal stores. There were
13,616 postal stores in the sample that were in market areas with this average density.
Surprisingly the actual radius of these postal stores was only 5.9 miles, not much larger
than the 4.7 miles for all non-large city facilities in the group of 22,811.

        The optimal radius is 8 miles but net revenue per square mile is only $128. At
this point the model solution is barely able to generate a positive surplus. If the ψ
parameter introduced and discussed in connection with equation (6) and reflecting the
share of revenue not allocated to processing and delivery of the mail were slightly
smaller, the model could not produce a solution with positive net revenue. The
suggestion here is that, given the cost structure of USPS operations through retail stores,
even with an optimal structure of facilities, losses are inevitable on operations in low
density areas. In such cases, the CPU offers an alternative business model whose cost
structure might well be consistent with positive net revenue. Indeed the optimal facility
is characterized by 0.6 windows, one worker, and about $212,000 per year in total
revenue. If the solution were constrained to cases with at least one full window, the
radius would rise to approximately 13 miles and the surplus per mile would approach
$100.

        The model solution suggests that the surplus per square mile is $119 at 5.9 miles
and $128 at the optimal 8 mile radius. The difference of $9 per square mile, if multiplied
by the market area of all 13,616 facilities in these low density areas produces a gain from
moving from the current market radius to the allocatively efficient market radius of $18.3
million dollars per year. However, there is a difficulty with this computation because, at
the current radius of 5.9 miles and current revenue of $129,000 per postal store, there is
clearly substantial technical inefficiency. Clearly these 13,616 facilities, even if they
only have one window and one worker, are operating under conditions of substantial
overcapacity and hence substantial x-inefficiency.




                                             35
                                                                Table 5
                                             Estimated Revenue and Cost at Different Radii for
                                                      Low-Density Non-Urban Areas
 Radius                                                                                      Interior                         NetRev
 (miles)                             Revenue ($)          Windows       Employees            Space (sf)         Cost ($)     ($)/SqMi
       0.5                               14,410                0.0             0.1                   110          8,226        -1,300
         1                               17,804                0.1             0.1                   131          9,838           -298
       1.5                               23,271                0.1             0.1                   165         12,341           -100
         2                               30,656                0.1             0.2                   209         15,586            -21
       2.5                               39,805                0.1             0.2                   261         19,446             23
         3                               50,563                0.1             0.3                   321         23,818             52
       3.5                               62,775                0.2             0.3                   386         28,613             72
         4                               76,288                0.2             0.4                   456         33,758             87
       4.5                               90,945                0.3             0.5                   530         39,185             99
         5                              106,592                0.3             0.5                   607         44,835            108
       5.5                              123,074                0.3             0.6                   686         50,654            115
         6                              140,238                0.4             0.7                   767         56,589            120
       6.5                              157,927                0.4             0.8                   849         62,594            123
         7                              175,988                0.5             0.8                   932         68,621            126
       7.5                              194,265                0.5             0.9                 1,014         74,627            127
         8                              212,604                0.6             1.0                 1,095         80,569            128
       8.5                              230,850                0.6             1.0                 1,175         86,404            128
         9                              248,848                0.7             1.1                 1,253         92,094            127
       9.5                              266,445                0.7             1.2                 1,328         97,597            126
        10                              283,484                0.8             1.2                 1,400        102,874            124
        11                              315,272                0.8             1.4                 1,534        112,595            119
        12                              342,975                0.9             1.5                 1,648        120,948            112
        13                              365,355                1.0             1.5                 1,740        127,622            104
        14                              381,175                1.0             1.6                 1,804        132,303             95
Employment density = 1 worker/square mile; residential density = 11 households/square mile;
income = $36,656.

Figure 5

                                             R adius  v s . Net R ev enue per S quare Mile: 
                                                   L ow‐D ens ity  Non‐Urban Areas
                             $200
                               $0
   Net R evenue per s qm




                            ‐$200
                            ‐$400

                            ‐$600
                            ‐$800
                           ‐$1,000
                           ‐$1,200
                           ‐$1,400
                                     0   1    2       3      4     5      6      7      8       9    10    11     12   13   14
                                                                         R a dius (Mile s)
                                                   E mployment/s qm =  1; HH/s qm =  11; Inc ome/HH =  $36,656




                                                                            36
         The exercises constructed in this section indicate that there are significant
potential gains in allocative and technical efficiency possible by spacing and sizing USPS
facilities using models of the type developed in this report. At the same time that these
gains in allocative efficiency are obtained, the model automatically selects facility sizes,
numbers of windows, and workers consistent with technical efficiency. Particularly in
the model solution for areas outside large cities, it is evident that substantial gains in
technical efficiency are possible. The exact form of the adjustments and the nature of the
transitions that should be made are complex. For large urban areas, it may be that the
size of some facilities, or at least the provision of retail windows, should be increased but
the spacing is, on average, appropriate. For non-urban areas there are too many
facilities, and readjusting the size and spacing to maximize welfare will reduce the
number of facilities. There are also far too many windows. However, the average
number of windows in the allocatively efficient postal store spaced at a radius of 6 miles
is 1.75 while the average windows in current facilities spaced at 4.5 miles is 2.13. Thus
the number of windows per current facility is not a major problem. The major problem is
the sheer number of current facilities in non-urban areas.

       Using the model to evaluate allocatively efficient facilities for low density areas
demonstrates that the allocatively efficient postal store may be impractical because it is
simply too small, i.e. 0.6 windows and one worker. This facility produces a surplus per
square mile of market area that is about 20% larger than the minimum sized facility large
enough to have a single window, and that facility has a 16 mile market radius.

        The estimates of technical inefficiency conducted here have involved substantial
imputation as well as averaging over very diverse market areas. It is easier to estimate
gains in technical efficiency if the focus is on a single market area. Also the actual
operation of the model in a planning context is best illustrated by focusing on a specific
area. The next section provides such an illustration.


     6.     Applying the Model to a Market Area: the Case of Buffalo
        This section applies the model to a particular market area in order to illustrate two
points. First, the steps necessary to achieve such geographic focus are made apparent.
Second, the gains from eliminating x-inefficiency as well as from promoting allocative
efficiency can both be estimated. The area chosen for study is the Buffalo-Niagara Falls
MSA (hereafter Buffalo). The population of this area has been steady since 1990
although, like most other cities, the center city has tended to lose population slowly to the
suburbs.

        Because population and household density are key driving forces in determining
optimal facility size and spacing, it is necessary to explore the area in question to
determine how these densities vary. Cursory examination of the Buffalo area indicates
that densities generally fall with distance from the city center. Accordingly, the area was
divided into three concentric rings for analysis. The first ring is the first 7 miles from
downtown. The second ring or annulus covers the area greater than 7 and less than 20


                                             37
miles from central Buffalo. The third ring includes the remainder of the two counties –
Erie and Niagara – that constitute the MSA.29

        Analysis of the region required solution of the model three times, once for each
area. Household density varied from 2,483, to 465, to 120 households per square mile
going out from the city center. Employment density also fell from 325, to 58, to 20 as
distance increased. Numbers of competitors, employment in mail processing, and rental
price of space also fell. Household income was the one exception, peaking in the 7 to 20
mile annulus.

        This division of the market into three concentric circles is slightly artificial in that
natural market boundaries between facilities are ignored. In an actual planning
application of the model, the area under study would be divided into subareas based both
on differences in demand density and on current market boundaries between facilities.

Discussion of the innermost circle: Buffalo, 0 to 7 miles from City Center

        Table 6 and Figure 6 contain the simulation results for the innermost circle where
densities of households, employment, and competitors are highest. Household income is
lowest in this circle. According to the USPS Facilities Database, this area is currently
occupied by 14 facilities serving an average market area of 6.8 miles, which implies an
average market radius of 1.47 (the actual mean radius is 1.33 but recall the non-linear
aggregation problem). This accounts for 95 square miles out of a possible 154 square
miles in a circle of radius 7 miles. There are two CPU facilities and an air mail in this
market area which are omitted from the analysis.30 The difference presumably reflects
the fact that much of the circle would fall over water, and some would even occupy
Canadian territory. The model solution that maximizes welfare suggests that market
radius should be 2 miles for a market area of 12.56 square miles. Dividing the 95 square
miles produces a quotient that indicates an optimum of 8 facilities rather than 14. The
gain in allocative efficiency from producing in 8 facilities with a radius of 2 miles rather
than 14 facilities with an average radius of 1.47 is (36,904 – 35,457) = $1,447 per square
mile or $137,465 per year.




29
   This division of the area is not based on exhaustive study. The point of this exercise is to illustrate the
application of the model rather than to make specific recommendations for changes in Buffalo.
30
   Lack of data on CPU facilities has forced their omission from the model.


                                                      38
                                                                  Table 6
                                            Estimated Revenue and Cost at Different Radii for
                                                 Buffalo Area, 0-7 Miles from City Center
 Radius                                                                                Interior                         NetRev
 (miles)                             Revenue ($)      Windows        Employees         Space (sf)         Cost ($)     ($)/SqMi
       0.5                               165,774           0.5              0.8                885         67,503        19,597
      0.75                               347,370           0.9              1.5              1,666        126,042        26,974
         1                               591,129           1.5              2.3              2,625        197,541        31,218
       1.5                             1,240,965           3.1              4.4              4,949        369,979        35,457
         2                             2,066,932           5.0              6.8              7,655        569,958        36,904
       2.5                             3,020,684           7.2              9.4            10,589         786,144        36,902
         3                             4,053,875           9.5             12.1            13,617       1,008,883        36,025
       3.5                             5,118,155          11.8             14.8            16,620       1,229,477        34,567
         4                             6,165,180          14.1             17.3            19,487       1,439,810        32,699
       4.5                             7,146,600          16.2             19.7            22,111       1,632,111        30,529
         5                             8,014,070          18.1             21.7            24,386       1,798,789        28,131
       5.5                             8,719,241          19.6             23.3            26,209       1,932,286        25,555
         6                             9,213,766          20.7             24.4            27,475       2,024,936        22,841
       6.5                             9,449,300          21.2             25.0            28,075       2,068,800        20,019
         7                             9,377,493          21.0             24.8            27,892       2,055,445        17,115
       7.5                             8,949,999          20.1             23.8            26,801       1,975,614        14,151
         8                             8,118,471          18.3             21.9            24,657       1,818,661        11,149
       8.5                             6,834,561          15.6             18.9            21,283       1,571,427          8,136
         9                             5,049,923          11.7             14.6            16,431       1,215,558          5,148
Employment density = 325 workers/square mile; residential density = 2,483 households/square mile;
income = $43,000.

Figure 6

                                           R adius  v s . Net R ev enue per S quare Mile: 
                                                       B uffalo Area, 0‐7 Miles
                           $40,000
                           $35,000
   Net R evenue per s qm




                           $30,000
                           $25,000

                           $20,000
                           $15,000
                           $10,000
                            $5,000
                               $0
                                     0     1         2         3          4         5        6        7            8   9
                                                                       R a dius (Mile s)

                                                E mployment/s qm =  325; HH/s qm =  2,483; Inc ome/HH =  $43,000



         As noted above, this gain in allocative efficiency ignores the possibility of gains
from technical efficiency because the current facilities may not produce given services at
minimum cost. Unfortunately, it is not possible to observe detailed cost data for all
facilities because information on windows in operation and workers comes from the POS



                                                                          39
system and not all facilities are on POS. Given this data deficiency, the operating cost
characteristics of the facilities with POS data were ascribed to all 14 facilities in the
market area. Because POS facilities tend to be larger and to have greater revenue, it is
inappropriate to assume that the “missing” facilities in the POS data have the same size,
employees, windows, or revenue as those in the data. Instead, they are assumed to have
the same “operating ratios” of revenue per window, and revenue per worker. The cost
differential between operating with these ratios and with the ratios used to generate the
technically efficient results in the model may be compared and the cost of x-inefficiency
computed.

         In the inner circle, the average annual revenue per retail window is $242,058.
Facilities have an average of 2.66 windows and 5.33 retail workers for a ratio of workers
per window of 1.89. 31 Compared to the general sample, both the revenue per window
and the workers per window are rather high. Given the cost functions in the model, the
estimated cost of meeting the predicted total revenue of operating a facility with revenues
of $242,058 per window and 1.89 workers per window is estimated to be $679,733 per
year. Operating using the technically efficient conditions serving as the basis for the
model developed here implies annual facility cost of $369,979. The cost saving per
facility from elimination of x-inefficiency is estimated to be $309,754 per facility. Given
14 facilities, the total cost savings from elimination of x-inefficiency at all facilities
inside the 7 mile limit is $4.3 million per year.32 These savings arise largely from the
elimination of excess windows and secondarily from a lower ratio of workers per
window. To the extent that the high ratio of workers per window is based on non-retail
duties of these workers, the amount of x-inefficiency is overestimated. It may also be
that the nature of demand at such inner city facilities is different requiring more
transaction time per dollar of final revenue.

Discussion of the middle annulus: Buffalo, 7 to 20 miles from City Center

         Model results for suburban Buffalo, the area from 7 to 20 miles from the city
center, are presented in Table 7 and Figure 7. The Facilities Database identifies 31
facilities in this annulus with an average market radius of 2.4 miles and market area of
21.1 square miles. Geometrically, an annulus ranging from 7 to 20 miles could contain
1,103 square miles, but the market areas cover only 651 square miles because much of
the area in the annulus lies either over water, in Canada, or both.

        Table 7 indicates that allocative efficiency is achieved with a market radius of 3.5
miles and market area of 38 square miles. Thus, allocative efficiency implies production
in 17 rather than the current 31 facilities. The net revenue per square mile at this 3.5 mile
radius is $10,611, which is well below net revenue per square mile for the inner annulus

31
   Average annual revenue per facility is $688,539. Complete data were only available for 3 of the 14
facilities. This is significantly less than the average of $1.2 million per facility for the entire group of 14.
Therefore the averages reported here may not reflect the characteristics of all central city facilities.
32
   The $4.3 million in annual savings from eliminating x-inefficiency exceed the $137,465 annual gains
from moving further to allocative efficiency by a factor of 30. However, if the size distribution of facilities
is to be altered to achieve technical efficiency, it would also appear desirable to achieve gains from shifting
production to the correct number and spacing of facilities at the same time.


                                                      40
analyzed above because densities of population and employment are both significantly
lower in the suburbs. Compared to the current radius of 2.4 miles, the net revenue per
square mile is $531 = $10,611 – 10,080 dollars higher.33 Multiplying this difference by
the 651 square miles of market area gives an estimate of the gain from the increases in
allocative efficiency involved in moving to an optimal radius from the current radius of
$346,000 per year. This gain is a change due to allocative efficiency in that it is based on
the assumption that the facilities in the current 2.4 mile radius are technically efficient.
Of course this may not be the case, and the next task is to estimate the gain from
eliminating x-inefficiency in the current system.


                                             Table 7
                        Estimated Revenue and Cost at Different Radii for
                            Buffalo Area, 7-20 Miles from City Center
     Radius                                                    Interior                          NetRev
     (miles)     Revenue ($)      Windows      Employees       Space (sf)        Cost ($)       ($)/SqMi
           0.5        59,026           0.2            0.3              366        27,607            2,428
          0.75       114,623           0.3            0.6              646        48,394            5,049
             1       190,576           0.5            0.9              997        74,425            6,644
           1.5       399,206           1.0            1.7            1,877       139,265            8,540
             2       676,225           1.7            2.6            2,945       217,761            9,582
           2.5     1,012,943           2.5            3.7            4,160       306,842          10,172
             3     1,400,671           3.5            4.9            5,489       404,032          10,485
           3.5     1,830,717           4.5            6.1            6,901       507,200          10,611
             4     2,294,394           5.5            7.4            8,370       614,432          10,604
           4.5     2,783,010           6.6            8.8            9,872       723,971          10,498
             5     3,287,875           7.8           10.1          11,384        834,167          10,316
           5.5     3,800,300           8.9           11.5          12,885        943,455          10,072
             6     4,311,595          10.0           12.8          14,354      1,050,328            9,779
           6.5     4,813,070          11.1           14.0          15,769      1,153,326            9,446
             7     5,296,034          12.2           15.2          17,113      1,251,019            9,080
           7.5     5,751,798          13.2           16.3          18,364      1,341,999            8,685
             8     6,171,672          14.1           17.3          19,505      1,424,868            8,265
           8.5     6,546,966          14.9           18.2          20,514      1,498,230            7,825
             9     6,868,990          15.6           19.0          21,374      1,560,681            7,367
Employment density = 58 workers/square mile; residential density = 465 households/square mile;
income = $50,000.




33
  Figures for a radius of 2.4 miles are not shown in Table 7. However, the model can be run for any radius
and these results were produced using r = 2.4.


                                                   41
Figure 7

                                           R adius  v s . Net R ev enue per S quare Mile: 
                                           B uffalo Area, 7‐20 Miles  from C ity  C enter
                             $12,000

                             $10,000
     Net R evenue per s qm




                              $8,000

                              $6,000

                              $4,000

                              $2,000

                                 $0
                                       0   1         2         3         4          5        6         7        8   9
                                                                       R a dius (Mile s)

                                                E mployment/s qm =  58; HH/s qm =  465; Inc ome/HH =  $50,000




        Relying on the operating ratios from the 13 facilities in the 7 to 20 mile range of
central Buffalo that produce available POS data, it appears that current annual revenue
per window is $302,440, and there are 1.60 workers per window.34 These numbers are
far closer to capacity limits set in the model than was the case for facilities in the central
annulus analyzed above, and the expectation is that x-inefficiency is far smaller.
Generating a cost per facility estimate using these lower operating ratios, produces an
estimated annual cost per facility of $450,538 compared to the technically efficient cost
estimate of $321,341 in the model. Taking the difference in cost per facility and
multiplying by the 31 facilities, produces an estimate of the gain from eliminating x-
inefficiency of $4,005,107 per year. While this total gain is comparable to the savings
from eliminating x-inefficiency in the innermost circle, the number of facilities has
doubled and hence, the gain from “right sizing” per facility is slightly less than half as
large as for the facilities in the central area of Buffalo.

Discussion of the outer annulus: 20+ miles outside central Buffalo

       The outer annulus has much lower average densities than the suburban annulus
and includes a combination of rural and urban places. The edge of this annulus is the
boundaries of the two counties, Erie and Niagara, that comprise the MSA, along with the
southern Canadian border. The FDB lists 20 facilities in this annulus with an average



34
   In this case the average annual revenue per facility observed in the POS data is $849,113, which is
comparable to the average annual revenue of $939,323 for all facilities observed in the FDB. Accordingly,
it is likely that the sample of 13 facilities in POS is representative of the population of 31 facilities in the
area.


                                                                         42
area of 38.2 square miles, i.e. a total area of 764 square miles. The mean radius is 3.25
miles.35

         The model solution shown in Table 8 and Figure 8 demonstrates that allocative
efficiency is achieved with a market radius of 4 miles. Given the total market area of 764
square miles, this implies production in 15 rather than 20 facilities. This change results
in an annual surplus of $2,075 per square mile rather than the $2,045 per square mile
achieved with technically efficient facilities at a radius of 3.25 miles. The difference in
allocative efficiency per mile of $30, when multiplied by the 764 square miles served,
results in an annual gain in surplus of $22,920 per year from moving to the larger market
radius. This is certainly a modest gain compared to other cases studied. In part that is
because the surplus per unit area, even under allocative efficiency, is quite small.


                                             Table 8
                        Estimated Revenue and Cost at Different Radii for
                             Buffalo Area, 20+ Miles from City Center
     Radius                                                     Interior                           NetRev
     (miles)     Revenue ($)      Windows       Employees       Space (sf)        Cost ($)        ($)/SqMi
           0.5        25,654           0.1             0.2              180        13,340              -653
          0.75        40,625           0.1             0.2              266        19,698               348
             1        60,959           0.2             0.3              376        27,795               855
           1.5       116,279           0.3             0.6              654        48,091             1,422
             2       188,730           0.5             0.9              989        72,569             1,735
           2.5       275,430           0.7             1.2            1,366       100,063             1,919
             3       373,497           1.0             1.6            1,773       129,637             2,021
           3.5       480,047           1.2             2.0            2,197       160,479             2,068
             4       592,199           1.5             2.3            2,629       191,856             2,075
           4.5       707,070           1.8             2.7            3,059       223,087             2,052
             5       821,777           2.1             3.1            3,479       253,528             2,005
           5.5       933,438           2.3             3.4            3,879       282,558             1,939
             6     1,039,170           2.6             3.8            4,252       309,575             1,858
           6.5     1,136,092           2.8             4.1            4,589       333,983             1,764
             7     1,221,319           3.0             4.3            4,882       355,191             1,660
           7.5     1,291,970           3.2             4.6            5,122       372,606             1,548
             8     1,345,163           3.3             4.7            5,302       385,624             1,428
           8.5     1,378,014           3.4             4.8            5,413       393,626             1,302
             9     1,387,641           3.4             4.8            5,445       395,966             1,171
Employment density = 20 workers/square mile; residential density = 120 households/square mile;
income = $45,000.




35
  An average radius of 3.25 suggests an average market area of 33.2 square miles. The larger average
market area is due to the variation in market areas among the 20 facilities. As discussed earlier in this
report, variation in market radius causes the mean market area to be larger than the market area generated
by the mean radius.


                                                    43
Figure 8

                                           R adius  v s . Net R ev enue per S quare Mile: 
                                           B uffalo Area, 20+ Miles  from C ity  C enter
                             $2,500

                             $2,000
     Net R evenue per s qm




                             $1,500

                             $1,000

                               $500

                                 $0

                              ‐$500

                             ‐$1,000
                                       0   1         2         3         4          5        6         7        8   9
                                                                       R a dius (Mile s)

                                                E mployment/s qm =  20; HH/s qm =  120; Inc ome/HH =  $45,000



         The POS system contains information on 7 of the 20 facilities in the outer annulus
of Buffalo that can be used to estimate operating ratios for use in computing the degree of
x-inefficiency or excess capacity in this outer area. Average revenue per postal store in
POS is $583,662 per year, which is substantially larger than the average of $328,210 for
all 20 facilities. It is not surprising to find that POS facilities are selected from among the
largest in this outer area. This may bias estimates of the amount of x-inefficiency
downward as the units with greatest excess capacity may not be in POS.36 For the 7
facilities that are observed in POS, revenue per window is $213,631 and there are 2
clerical employees per window. Compared to the operation of technically efficient
facilities serving a radius of 3.25 miles, production with these x-inefficient operating
ratios adds $181,286 per year to facility cost. Given the 20 facilities currently in
operation, this implies an increase in annual cost due to x-inefficiency of $3,625,720.
Clearly, the relative importance of excess capacity or x-inefficiency compared to
allocative efficiency as a source of loss of social welfare in this outer annulus is huge.

Lessons from application of the analysis to the Buffalo-Niagara Falls MSA

        Because the model of optimal facility size and spacing is very non-linear, it is best
to apply it to areas that are relatively homogenous in determinants of the demand for
postal facilities. Specifically, it should be applied to areas where the variation in
population and employment density is moderate. In the case of the application to
Buffalo, the area was split into three subareas, based on distance from the city center,
where densities were relatively homogenous. Solution of the model for the optimal size

36
  For example, some facilities not appearing in POS have total annual revenue of less than $50,000. Given
the operating ratios associated with efficiency, this suggests very large excess capacity. In the conclusion
of this report, some observations about such cases of low revenue due to low demand density will be made.
These are cases in which the current business model likely will not permit operations to generate a positive
surplus of revenue over cost regardless of the size and spacing of facilities.


                                                                          44
and spacing of facilities in these three areas produced allocatively optimal patterns that
appear to differ moderately as market radius increases from 2 to 3.5 to 4 miles as distance
from the center increases from 0-7 to 7-20 to 20+ miles. These differences in radius are
associated with variation in market area from 12.56 to 38.46 to 59.66 square miles.
Differences in annual surplus of net revenue over cost per mile fall from $36,904 to
$10,611, to $2,075. Differences in optimal facility size are more modest but still
consequential.

        It would be useful to inform results from Buffalo by using performance data from
USPS surveys of service quality and performance. Unfortunately, Mystery Shopper Data
were only collected for a small number of facilities covered in this analysis but, if the
entire Western New York district is used as a reference point, waiting time was, on
average 2 minutes and 38 seconds compared to a national average of 3 minutes 1 second.
Further comparisons of earned hours to actual hours of retail terminal activity could be
used to verify the model solution suggesting high levels of technical inefficiency.

        It is important to keep in mind that the process of moving to technical efficiency
will likely involve moving to different facilities, not simply closing selected facilities
where operating ratios like revenue per window or revenue per worker are low. Once it
is conceded that the process of achieving greater technical efficiency will involve
migration of facilities, not just selective closing of facilities, then considerations of
allocative efficiency follow automatically. If facilities are going to be resized, then they
should be spaced and located in a manner consistent with both technical efficiency and
allocative efficiency so that the gains in welfare from both sources of efficiency can
accrue to the USPS and its patrons.



7.     Summary and Conclusions Regarding the Recommended Size and
                 Location of USPS Retail Facilities
Summary of the research effort

         This study is based on the proposition that the spatial approach to location of
retail outlets and public facilities found in the academic literature and currently applied in
modern business practice can be adapted to the problem of building a model of the
welfare effects of the size and spacing of retail postal facilities. The first step in
advancing this proposition is to develop a theoretical model of the problem and to adapt it
to the particular circumstances of USPS retail operations. Second, this model is
calibrated using estimates of the spatial demand for and cost of postal services. The
resulting model fits the data on retail revenue remarkably well. The result was a model
that is very effective at taking the characteristics of the residential population and
employment in an area, along with the presence of competing mail services and the
current size and spacing of facilities, and generating estimates of retail revenue received.
Third, the implications and potential application of the model are demonstrated by
solving for the optimal size and spacing of USPS retail facilities first in fairly general
terms and then with a specific application to the Buffalo-Niagara MSA. These


                                             45
applications demonstrate a significant difference between the current size and spacing of
retail facilities and an optimal network. Generally speaking, the current network has too
many facilities located too close together. The size of facilities may or may not be
appropriate. There are cases in which current operations include many facilities with
substantial excess capacity that could be fully used if there were fewer facilities. While
the results presented in this report may appear similar to other studies, in particular the
GAO report of December, 2007, these results are based on a structural model of the
benefits and costs of providing postal services that identifies an optimal spatial pattern of
production. In reviewing the available literature and discussions with USPS personal no
comparable model was found. Indeed, no other spatial model of the demand for USPS
retail services that could be found.

         The model created as part of this exercise has a number of potential applications
to problems of USPS management beyond the decision to close, open, relocate, or resize
facilities. First, it allows managers to estimate the expected revenue from a postal store
as a function of the population, employment, competitors, etc that surround it. This
expected performance can be compared to actual performance to evaluate the
performance of a postal store. Second, cost estimates can be made and combined with
revenue estimates to evaluate expected contribution to surplus and this can be compared
to the actual contribution. Both these first two applications can be useful in evaluating
the quality of facility management. Third, in growing areas where there are needs for
service expansion, the model can transform projections of future population and
employment into estimates of future demand for services and then optimize the retail
facilities provided to serve that future development. Fourth, the model can be used to
estimate the true incremental cost to the USPS of the universal service requirement
because it can estimate the difference in net revenue between allocatively inefficient
numbers and sizes of facilities needed to provide universal service and the surplus that
could be produced under allocative efficiency. The universal service requirement does
not force x-inefficiency on the USPS except insofar as it prevents replacing large
facilities with small ones. But, it does force inefficiently small market radii on the USPS,
and the differences in allocative efficiency can be large. Fifth, and perhaps most
important, is that the model can be used to plan the restructuring of sizes and locations of
facilities as part of a program directed at removing both technical and allocative
inefficiencies. As illustrated in the case of the Buffalo-Niagara MSA, x-inefficiency is
much larger than allocative inefficiency. Nevertheless, any program that reorders the
sizes and spacing of retail facilities in that area to achieve technical efficiency could, if
directed by the model developed here, also achieve the further gains associated with
allocative efficiency at the same time.

       All of the above applications of the model have been illustrated in this report.
There is another, or sixth, important potential use of the model. Running the model for
low density areas demonstrates that the allocatively efficient postal store may be
impractical because it is simply too small, i.e. 0.6 windows and one worker. This facility
produces a surplus per square mile of market area that is about 20% larger than the
minimum sized facility large enough to have a single window, and that facility has a 16
mile market radius. These results are based on the standard USPS post office branch



                                             46
business model that is built into the computations. Recently the USPS has been
expanding services through contract postal units, CPUs, whose business model provides
retail services at much lower cost. The model developed here is capable of identifying
the circumstances under which the CPU in combination with the traditional postal retail
store produces larger surplus than branches alone. Furthermore, the model could
potentially be modified to estimate the gains from considering this alternative business
model.

        Overall, the potential gains from moving to a retail system characterized by
technical and allocative efficiency appear to be substantial. Two approaches, one general
and the other detailed, are taken here. The general approach divides the U.S. into large
urban areas and the rest of the U.S. (“non-urban”) samples. For large urban areas, the
number and spacing of postal stores appears consistent with allocative efficiency and
average postal store size is, if anything, smaller than the technically efficient size,
perhaps resulting in high waiting times and lost revenue. In the non-urban, allocative
efficiency implies producing in substantially fewer facilities located further apart, a six-
mile radius rather than 4.5 miles. Technical efficiency would require producing with
fewer total windows and workers. The gain from achieving technical efficiency in
providing postal stores to non-urban areas is estimated at $5.4 billion per year with a
further gain from moving to an allocatively efficient spacing of facilities of $180 million
per year. While these are only estimates of the gains from change based on imputed
values for non-POS facilities that may have substantial errors, they certainly establish the
point that the estimated returns from moving toward a welfare-maximizing solution are
substantial.

         Detailed analysis of the Buffalo-Niagara MSA, which contains 65 retail facilities,
indicates that these would be reduced to 46 facilities in an allocatively efficient solution.
Gains in technical efficiency are estimated at $11.9 million per year and those in
allocative efficiency at $0.5 million per year for a total of $12.4 million per year. To put
this in perspective, the 65 facilities in this two-county area constitute only 0.23% of all
USPS retail facilities. To the extent that the gains in this region are typical of the entire
country, the total net benefit from using the model to realign the USPS postal store
network would be approximately $5.4 billion per year. Of course, scaling returns from
0.23% of the country to the entire U.S. gives, at best, a rough approximation to the true
gains. Nevertheless, it is interesting that the results of evaluating gains from achieving
technical and allocative efficiency using two independent estimation methods are
remarkably consistent.

Conclusions and recommendations

         The USPS has much to gain from using modern facility location models to inform
decisions regarding expansion and contraction of its postal store system. It does not
currently have such a model, indeed the USPS does not even have a model which allows
it to estimate the relation between characteristics of the residential population and
employment in an area and the demand for postal services. The basic characteristics of
such a model are illustrated in this report along with its operational use in a detailed
postal store planning process.


                                             47
         Overall, the number and spacing of postal stores in large urban areas appears
close to optimal although there is evidence that the numbers of windows and workers
should be increased. It is not clear that this requires changing facilities because current
facility size is more than adequate.

        There at too many postal stores spaced too close together outside large urban
areas. Using two different techniques, the loss in net revenue to the USPS from this
inefficiency is estimated to be as large as $5.5 billion per year. While this is a very rough
estimate due in part to the lack of information on retail employment, particularly in non-
POS facilities, the potential social welfare gains from moving to technically and
allocatively efficient production are surely large.

        In low density, rural areas, the current USPS business model for a postal store
results in negative net revenue (losses) attributable to retail operations. Currently these
losses are balanced, in part, by cross subsidies from facilities in large cities. Provision of
retail postal services through another business model in such areas, possibly through
CPUs, should be investigated.

         USPS data systems should be directed to support the type of modeling necessary
to implement modern facility location models, including measurement of the effects of
service quality and waiting time on the demand for services. Mystery Shopper Data
should include the exact time when shopping was done. Measurement of retail labor
effort, particularly in non-POS locations, is also essential.




                                              48
                  Appendix on USPS Data System Constraints

        In the course of doing the analysis for this report, a number of problems with
current USPS data were encountered that limited the ability to calibrate the model.
Removal of these impediments does not seem unreasonable or difficult, and it would
allow further improvements to the model and more precise statements about optimal
USPS facility planning and management. These data challenges are enumerated below.

         Information on numbers of windows (defined as terminals or registers engaged in
front office activity and recording significant walk-in revenue) is only available through
the POS system. Such detailed information should be in the Facilities Database so that it
can be observed for all postal stores. Furthermore, the amount of labor effort needed to
accomplish the retail mission at each facility is difficult to measure, even for POS
facilities.

         For each postal store, questions should be added and serious answers required so
that the observation of total interior space is divided into retail functions, mail processing
functions, and other activity types as USPS sees fit. Inability to observe space dedicated
to retail operations makes it difficult to estimate the productivity of retail space and the
amount of excess space in each facility.

        The number of retail workers working at each postal store can only be obtained by
indirect methods. For purposes of this report, a system was developed for measuring
retail workers per facility by noting the frequency with which each different employee
appears logged into a terminal. This indirect technique is not an ideal way to measure
clerical effort, and it is only available for the subset of facilities connected to the POS
system.

       The Mystery Shopper Dataset is potentially a valuable source of information on
the capacity to serve walk-in revenue. Existence or lack of lines and significant waiting
time provides potentially valuable information on the degree of capacity utilization.
Unfortunately, the Mystery Shopper Dataset does not give the time of day that the facility
was “shopped.” This means that it cannot be linked to POS data on revenue which is
available by terminal by half-hour interval. The resolution to this problem is exceedingly
simple. Among the dozens of data items recorded when a postal store is mystery
shopped, record the time of day that the test was performed so that the shopping results
can be related to specific POS data for that date and time.




                                              49
